Real Property Leasing
Procurement Process




                        September 30, 2010
                            Report No. 484
                                                       UNITED STATES
                                      S ECURITIES AND EXCHANGE COMMISSION
                                                  WASHINGTON, D.C.    20S49


     Ol'"l'"'Cl!: 0..-
IN.~IlCTOft     GI:NERAl-

                                             MEMORANDUM
                                                    September 30, 2010

              To:                 Sharon Sheehan, Associate Executive Director, Office of
                                  Administrative Services (OAS)

              From:               H. David Kotz, Inspector General, Office of Inspector   GeneraIJ~~
              Subject:            Real Property Leasing Procurement Process, Report No. 484

              This memorandum transmits the U.S. Securities and Exchange Commission,
              Office of Inspector General's (DIG) final report detailing the results of our audit of
              the Real Property Leasing Procurement Process. This audit was conducted as
              part of our continuous effort to assess the management of the Commission's
              programs and operations and as a part of our annual audit plan.

              This report contains 14 recommendations that were developed to strengthen the
              Commission's real property leasing procurement processes. OAS fully
              concurred with all of the report's recommendations. Your written response to the
              draft report is included in Appendix V.

              Within the next 45 days, please provide the DIG with a written corrective action
              plan that is designed to address the agreed-upon recommendations. The
              corrective action plan should include information such as the responsible
              official/point of contact, time frames for completing the required actions, and
              milestones identifying how you will address the recommendations cited in the
              report.

              Should you have any questions regarding this report, please do not hesitate to
              contact me. We appreciate the courtesy and cooperation that you and your staff
              extended to our staff during this audit.


              Attachment

              cc:           Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                            Diego Ruiz, Executive Director, Office of the Executive Director
                            David Becker, General Counsel, Office of General Counsel
                            John Branch, Assistant Director, Office of Administrative Services,
                              Real Property and Facilities Support



        Real Property Leasing Procurement Process                                    September 30, 2010
        Report No. 484
                                                           ii
Real Property Leasing Procurement Process

                              Executive Summary
Background. In 1990, Congress provided the Securities and Exchange
Commission (SEC or Commission) with independent leasing authority and, at the
same time, exempted the SEC from General Services Administration (GSA)
space management’s regulations or directives. In doing so, Congress intended
that the SEC would exercise this independent leasing authority vigorously in
order to achieve cost savings and increase the SEC’s productivity and efficiency.
Pursuant to its independent leasing authority, the SEC enters into commercial
leases for all of the agency’s office space. The SEC does not own any of its
facilities.

The SEC’s real estate leasing function is managed primarily by the Real Property
and Leasing Branch (Leasing Branch) of the Office of Administrative Services
(OAS), which was established in April 2009. Leasing authority is centralized
within OAS, and the SEC’s regional offices do not have any independent
authority to enter into real property leases.

Other OAS components that have responsibilities that impact the SEC’s real
estate leasing program include OAS’s Security, Construction, Space
Management, and Facilities Branches, as well as the Office of Acquisitions.
Other SEC offices that have significant interaction with the leasing program are
the Office of Information Technology (OIT) and the Office of Financial
Management (OFM). The Associate Executive Director of OAS serves as the
SEC’s Senior Procurement Executive (SPE). Under agency contracting policies,
the SPE appoints a Realty Contracting Officer, who has delegated, express
written authority for realty leasing on a contracting officer’s warrant.

The SEC currently maintains 2,482,576 square feet of leasehold interests.
These include leases for SEC headquarters facilities located in Washington,
D.C., as well as leases for all of the SEC’s regional offices located throughout the
United States. The SEC made total lease payments of approximately $83.8
million in both Fiscal Years 2008 and 2009, representing approximately 9 percent
of the SEC’s total budget authority for these years. It is anticipated that the
SEC’s leasing program and leasing costs will increase over the next few years as
the agency expands to meet new responsibilities.

Objectives. The Office of Inspector General (OIG) conducted its audit to
determine whether OAS had established real property leasing policies and
procedures and to examine whether these policies and procedures were
consistently followed and in compliance with applicable federal laws, rules, and
regulations. Our audit was also performed to ascertain how the Leasing Branch
maintains and tracks the SEC’s real property leases. Lastly, our audit sought to
Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            iii
identify the SEC’s current leases and assess whether the lease requirements
were appropriate and to assess whether the SEC received the best value for its
leasing investments.

Results. Overall, our audit found that the SEC’s Leasing Branch does not have
adequate policies in place and, until very recently, had no final leasing policies
and procedures. Our audit also determined that the absence of adequate leasing
policies and procedures led to certain situations in which the SEC was required
to make lease payments that could have been avoided if appropriate policies and
procedures had existed and been followed consistently.

Significantly, our audit determined that the primary leasing policy document,
Securities and Exchange Commission Regulation (SECR) 11-03, “SEC Leasing
Program,” which was finalized months after our audit fieldwork was completed, is
incomplete and inadequate. Further, the SEC’s Leasing Program Operating
Procedures (OP 11-03), which supplements SECR 11-03, is also inadequate and
remains in draft form.

The audit noted the following specific deficiencies in the SEC’s leasing policies
and procedures. First, SECR 11-03 is incomplete as it does not list or describe
all of the legal requirements and guidelines relevant to real property leasing. The
SECR also fails to enumerate the specific objectives of the SEC’s leasing
program and provides no instructions or guidance to facilitate compliance with
relevant authorities. While the SEC, by statute, is exempted from strict
adherence to GSA space management regulations or directives, the SEC could
benefit significantly by looking to the GSA regulations on leasing and
management of real property as a guide, and evaluating, assessing and
implementing these regulations, as deemed appropriate.

Second, while the SEC’s Office of General Counsel (OGC) has indentified SECR
11-03 as the SEC’s asset management plan required by Executive Order 13327,
“Federal Real Property Asset Management,” the OIG’s review of SECR 11-03
revealed that it falls well short of being an adequate asset management plan.
The OIG found that SECR 11-03 was an insufficient asset management plan
because it did not set forth any objectives for the real property leasing function,
did not specify resource requirements to support real property leasing, and
contained virtually no information pertinent to lease administration. Specifically,
the audit noted that SECR 11-03 does not include the required components of an
asset management plan that are set forth in guidance issued by the Federal Real
Property Council (FRPC).

Third, the audit found that OAS did not have sufficient procedures for how leases
should be managed and tracked. While we found that the Leasing Branch had a
document that described the rent payment process and that staff manually
tracked monthly lease payments on a spreadsheet, the Leasing Branch does not
separately track amounts paid for operating expenses, property taxes or repairs.

Real Property Leasing Procurement Process                          September 30, 2010
Report No. 484
                                            iv
The audit concluded that the lack of such detailed payment data hinders the
SEC’s ability to monitor expenses incurred during the operational phase of a
lease, and that such information would be useful in making future leasing
decisions and formulating the annual budget for leased properties.

Fourth, the audit found that although the SEC’s five-year draft strategic plan
includes a strategic goal that encompasses enhancement of the Commission’s
performance through the effective alignment and management of financial
capital, the SEC has no specific goals or performance measures for real property
leasing, even though the SEC expends approximately $83.8 million per year on
real property leases. The audit noted that without such goals and performance
measures, OAS is unable to employ a continuous monitoring and feedback
mechanism, which is a required component of a sufficient asset management
plan.

As mentioned above, the OIG’s audit revealed certain specific instances in which
the failure to have in place, and to adhere to, adequate leasing policies and
procedures resulted in additional costs to the agency.

One of these situations involved the planning for the competition or renewal of a
building lease for the San Francisco Regional Office (SFRO) that was expiring at
the end of October 2009. The OIG audit found that OAS changed its plan to
negotiate a lease with the current landlord due to market information showing a
dramatic drop in rental rates in the San Francisco office market. As a
consequence, OAS decided to conduct a full and open competition and prepared
a sole source justification for a one-year extension of the existing lease to allow
sufficient time to negotiate a long-term solution. According to the sole source
justification document, OAS expected to negotiate a price of approximately
$42.24 per rentable square foot (rsf) for the one-year extension. The one-year
extension was never executed; however, and, beginning on November 1, 2009,
the SEC began paying rent at a higher holdover rate of over $60 per rsf.

After conducting a competition, the SEC awarded a new 10-year lease to the
current landlord. The new lease, which was signed on April 9, 2010, expanded
the existing office space and provided for annual rent of $41 per rsf, increasing
by $1 each year; however, the new rate does not commence until construction of
the 25th floor is completed and accepted. The SEC continued to pay rent at the
higher hold over rate for approximately six months until it signed the lease. At
that time, the landlord, consistent with its previous offer, agreed to credit the
difference between the holdover rate and the lease rate in effect as of October
31, 2009, of $53.34 per rsf, and the SEC will continue to pay rent at this rate until
the new lease becomes effective.

The OIG found that the failure to extend the previous lease prior to its expiration,
or to enter into a new one on a timely basis resulted in the SEC, during a time of
declining market rental rates, paying rent at rates substantially higher than the

Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                            v
rate it would have paid, had it executed the one-year lease extension
contemplated by the sole source justification. Specifically, we calculated that
even with the credit obtained after the new lease was signed, the SEC paid
excess rent totaling $203,000 between November 2009 and March 2010. While
OAS indicated that it performs acquisition planning, the OIG audit found that the
SEC’s written leasing policies and procedures do not adequately address timely
acquisition planning and do not require the preparation of adequate project plans.
The OIG concluded that improved policies and procedures for lease planning
would better enable OAS to anticipate and react to changed circumstances.

In another situation involving the lease of office space in New York City, the OIG
found that the SEC, for several past years and continuing into the future, was
obligated to make simultaneous payments for two office properties, one of which
it no longer occupies. Specifically, the OIG found that after asbestos was
discovered in the office location it had leased since late September 2001, the
SEC had a dispute with the landlord regarding how the situation should be
handled, and discussions with regard to an expansion in the existing location
came to an end. The SEC then decided to relocate its New York Regional Office
(NYRO) and enter into a lease at another site. However, the SEC was still
responsible for payments under the initial lease, as it believed it could not
demonstrate that the landlord had breached the terms of the lease, which
included a default clause, but not a termination for convenience clause.

In April 2004, SEC officials executed and approved a justification for other than
full and open competition to obtain a new NYRO lease on the basis of unusual
and compelling urgency. The justification was conditioned on the provision that
the successor landlord assume the SEC’s remaining obligations at the existing
lease site. The SEC entered into a lease for a new NYRO office location in
March 2005; however, the new landlord did not assume any of the SEC’s
remaining obligation at the previous site (although the landlord did agree that the
SEC would be responsible only for operating expenses during the first year of the
lease). The SEC contacted GSA, which found a tenant for the SEC’s former
office location. Also in March 2005, the SEC entered into a wrap around lease
and surrender agreement, which terminated the SEC’s previous lease provided
that the SEC made certain payments to the landlord, and the landlord and GSA
executed a lease for the premises (which they did).

As a consequence of the circumstances described above, the SEC has made
since May 2005, and continues to make, simultaneous payments for office space
at two locations in New York City. The OIG calculated that the SEC paid over
$15 million between May 31, 2005 and March 31, 2010 for property that no SEC
employees have occupied since June 2005. During this same time period, the
SEC made payments of over $35 million to lease its current NYRO facility.
Under the terms of its current lease and the wrap around lease and surrender
agreement, the SEC will continue to make simultaneous payments until March
2012. The OIG audit determined that the lack of SEC guidance for evaluating

Real Property Leasing Procurement Process                          September 30, 2010
Report No. 484
                                            vi
options prior to vacating leased space, or for including a termination for
convenience clause or a broader, more inclusive default clause in a lease, or
using flexible lease terms, contributed to the SEC paying millions of dollars for
space it did not occupy.

A final situation where insufficient policies and procedures contributed to
increased costs pertained to the evaluation of security requirements at a site in
Alexandria, Virginia, where the SEC entered into a short-term lease for
temporary office space, occupying a single floor of a four-floor building. While
the audit found that the Leasing and Security Branches have been working to
coordinate their efforts since the chiefs of those branches arrived at the SEC in
2008, improved coordination between these branches is needed. Further,
although the Security Branch has developed two documents to be used in
connection with proposed SEC office locations – a Building Security Survey and
a Security and Safety Assessment, the OIG identified additional important
information that should be included in the Security and Safety Assessment.

In addition, the OIG audit found that neither the Building Security Survey nor the
Security and Safety Assessment were used in connection with the Alexandria,
Virginia short-term lease. Because it was determined that the facility was located
in a high crime area, the SEC explored options for appropriately securing the
facility. OAS determined that the cost of developing computerized access for the
building was too high. OAS decided that the most cost-effective option to place
unarmed guards on the floor occupied by the SEC at the SEC’s expense and for
the SEC to pay the landlord, pursuant to a lease amendment, to hire an off duty
police officer to patrol the area at a cost of $200,000 per year. Thus, the SEC is
paying for an armed off duty police officer at a facility where it occupies only one
of four floors. Our audit found that if the appropriate security documents had
been used in connection with this lease, the Leasing Branch would have been
better equipped to negotiate for adequate security of the facility to be provided as
part of the initial lease document.

Summary of Recommendations. Our audit determined that several
improvements in the real property leasing process are needed to ensure that the
SEC exercises its independent leasing authority vigorously and achieves cost
savings and increased productivity and efficiency, as Congress intended.

Specifically, we recommend that OAS:

        (1)     Revise SECR 11-03 and draft OP 11-03 to ensure that they
                are adequate and complete and include the information
                identified in this report, finalize OP 11-03 and the
                attachments thereto, and ensure that the revised documents
                are posted to the Commission’s Intranet site and circulated
                to all staff with leasing responsibilities;


Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            vii
        (2)     Amend SECR 11-03 to include a complete list of relevant
                authorities that apply to real property leasing and finalize detailed
                guidance to ensure compliance with those authorities;

        (3)     Measure the SEC’s real property leasing policies and procedures
                against pertinent provisions of GSA regulations, including the GSA
                Acquisition Manual and Subpart C of the Federal Management
                Regulation, as appropriate;

        (4)     Ensure that the Leasing Branch’s policies and procedures,
                including OP 11-03 and the attached checklists, provide
                comprehensive guidance for SEC leasing officials regarding the
                leasing process to assist in ensuring compliance with applicable
                policies, regulations and best practices;

        (5)     Utilize the “Required Components” Section of the FRPC’s
                Guidance for Improved Asset Management to develop and finalize
                the SEC’s real property leasing asset management plan, as
                appropriate;

        (6)     Amend its leasing policies and procedures to require the tracking
                and monitoring of all leasing expenses (i.e., rent, operating costs
                and taxes) for informational and budget formulation purposes;

        (7)     Develop performance goals for the SEC’s real property leasing
                activities, including both lease acquisition and the monitoring and
                administration of existing leases, identify key external factors that
                could significantly affect the achievement of these goals, and
                periodically evaluate whether these goals are met;

        (8)     Develop performance measures to assist in evaluating the
                effectiveness of the major functions of real property acquisitions
                and operations and periodically evaluate performance based on
                these measures;

        (9)     Revise SECR 11-03 and draft OP 11-03 to include complete written
                policies for timely acquisition planning pertinent to real property
                leases, including the preparation of project plans and schedules
                with projected dates for achieving milestones well in advance of the
                scheduled commencement of a lease;

        (10)    Adopt evaluation procedures that involve scoring and ranking
                various options prior to deciding to vacate leased premises or to
                terminate a lease, and develop a transparent methodology for
                formulating scores and rankings;


Real Property Leasing Procurement Process                              September 30, 2010
Report No. 484
                                            viii
        (11)    In consultation with the OGC, ensure that the SEC’s real property
                leases provide appropriate protections in the event the SEC needs
                to terminate a lease before its expiration date;

        (12)    Revise the Security and Safety Assessment document to include
                more specific information, such as the number of recent incidents in
                the vicinity, the likelihood that future incidents will occur or
                vulnerabilities will be exploited, recommended countermeasures
                and the cost estimates for such countermeasures;

        (13)    Implement final policies and procedures to ensure that the Leasing
                Branch consistently includes the Building Security Survey
                document in all solicitations for leased space; and

        (14)    Implement final policies and procedures to ensure the Security
                Branch performs a physical review of prospective building locations
                and determines the threat within the immediate area prior to
                entering into a lease for any facility.




Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            ix
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ......................................................................................................... x

Background and Objectives
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 3

Findings and Recommendations
     Finding 1: The SEC’s Leasing Policies and Procedures Are Inadequate
     and Incomplete................................................................................................... 4
                  Recommendation 1..................................................................... 10
                  Recommendation 2..................................................................... 10
                  Recommendation 3..................................................................... 11
                  Recommendation 4..................................................................... 11
                  Recommendation 5..................................................................... 11
                  Recommendation 6..................................................................... 12
                  Recommendation 7..................................................................... 12
                  Recommendation 8..................................................................... 12

         Finding 2: The Lack of Adequate Policies and Procedures Relating to the
         Renewal or Competition of Building Leases that Were Expiring
         Contributed to the Payment of Increased Rent for the San Francisco
         Regional Office Space ..................................................................................... 13
                      Recommendation 9..................................................................... 17

         Finding 3: The SEC Has Made and Continues to Make Simultaneous
         Payments for Two Properties in New York, One of Which the SEC Has
         Not Occupied for Several Years ....................................................................... 17
                     Recommendation 10 ................................................................... 22
                     Recommendation 11 ................................................................... 22

         Finding 4: Improved Coordination Is Needed Between the OAS Leasing
         and Security Branches to Ensure the Necessary Security Information Is
         Obtained Prior to Entering into a Lease ........................................................... 22
                      Recommendation 12 ................................................................... 25
                      Recommendation 13 ................................................................... 26
                      Recommendation 14 ................................................................... 26




Real Property Leasing Procurement Process                                                      September 30, 2010
Report No. 484
                                                         x
Appendices
    Appendix I: Acronyms. .................................................................................... 27
    Appendix II: Scope and Methodology .............................................................. 28
    Appendix III: Criteria ........................................................................................ 33
    Appendix IV: List of Recommendations .......................................................... 36
    Appendix V: Management’s Comments .......................................................... 39
    Appendix VI: OIG Response to Management’s Comments............................. 48
    Appendix VII: Schedule of Questioned Costs.................................................. 49

Tables
     Table 1: SEC Lease Locations ......................................................................... 3
     Table 2: Questioned Costs Relating to Excessive Rent .................................. 49




Real Property Leasing Procurement Process                                                 September 30, 2010
Report No. 484
                                                      xi
                    Background and Objectives

Background
Section 4(b)(3) of the Securities Exchange Act of 1934 (Exchange Act), 15 U.S.C.
§ 78d(b)(3), gives the U.S. Securities and Exchange Commission (SEC or
Commission) independent leasing authority and exempts it from General Services
Administration (GSA) space management regulations or directives. Specifically,
that section, which was added by Public Law 101-550, the Securities Acts
Amendments of 1990, enacted on November 15, 1990, provides as follows:

         Leasing Authority. Notwithstanding any other provision of
         law, the Commission is authorized to enter directly into
         leases for real property for office, meeting, storage, and such
         other space as is necessary to carry out its functions, and
         shall be exempt from any General Services Administration
         space management regulations or directives.

All SEC office facilities are housed in commercially leased space, and the SEC
does not own any of its facilities. Currently, the real estate leasing function at the
SEC is managed primarily by the Real Property and Leasing Branch (Leasing
Branch) within the Office of Real Property Operations of the Office of
Administrative Services (OAS). 1 Leasing authority is centralized within OAS, and
the SEC’s regional offices have no independent authority to enter into real
property leases.

The Leasing Branch was established in April 2009 and includes eight positions:
an SK-15 Branch Chief, three SK-14 Lead Realty Specialists (one of which is
vacant), two SK-13 Realty Specialists, one SK-14 Business Finance Specialist,
and one SK-7 Secretary (Administrative Support). The Branch Chief, who initially
joined the SEC in July 2008, and other Branch staff members have previous
GSA leasing experience. The Leasing Branch staff acquires leasehold interests
in real property and performs budget execution activities for all leases. They also
provide lease administration with respect to leases for which those
responsibilities have not been delegated to the Space Management or Facilities
Branches or the regional office Administrative Officers (AOs).

Other components of OAS also have responsibilities that impact the SEC’s real
estate leasing program. For example, the OAS Security Branch is responsible
for determining the securities standards for SEC facilities and designates a
security level for space requirements. The OAS Construction Branch is
responsible for overseeing the design phase of the project, including tenant

1
 The Chief of the Leasing Branch reports to the Assistant Director for the Office of Real Property
Operations, who in turn reports to the Associate Executive Director, OAS.
Real Property Leasing Procurement Process                                                 September 30, 2010
Report No. 484
                                                     1
improvement pricing analysis and estimating, and the build-out of leased space.
The OAS Office of Acquisitions is responsible for overseeing the acquisition of
goods and services within the SEC. 2

The Associate Executive Director of the OAS serves as the SEC’s Senior
Procurement Executive (SPE). 3 The “SPE is responsible for the overall
management of acquisition policy at [the] SEC, including establishing and
implementing policy.” 4 The “SPE monitors the overall effectiveness and
efficiency of the contracting functions; and establishes controls to assure
compliance with laws, regulations, and procedures.” 5 The SPE is appointed by
the Executive Director, and this “appointment is for the duration of SPE’s
employment as the Associate Executive Director of OAS.” 6

The Realty Contracting Officer (RCO) is “an employee of OAS with express
written authority for realty leasing delegated by [the] SPE on a contracting
officer’s warrant.” 7 The RCO is appointed by the SPE, who “has the authority to
select, appoint, alter and rescind a RCO warrant.”8 “A RCO appointment is
made on a Certificate of Appointment, which is signed by the SPE, and which will
designate on its face any limits to the dollar amount of the appointment.” 9
Further, “RCO warrants are limited to Realty Leasing, and a RCO is not required
to hold a” Federal Acquisition Certification for Contracting (FAC-C). 10

The SEC OIG performed a previous audit of the SEC’s real estate leasing
function and issued Real Property Leasing, Report No. 330, on May 31, 2001.
The audit’s objective was to determine whether real property leasing procedures
complied with applicable guidance and were efficient and effective. While the
audit found that the SEC’s procedures for leasing generally complied with
applicable guidance, it also included six recommendations for enhancing
management of the leasing program.




2
  The Assistant Director of the Office of Acquisitions reports directly to the Associate Executive Director of
OAS, while the Chief of the Construction Branch reports to the Assistant Director for the Office of Real
Property Operations, and the Chief of the Security Branch reports to the Assistant Director for Security,
Publishing, and Mail Operations.
3
  SEC Contracting Authorities and Appointments, SECR 10-02 (REV2), March 31, 2010, Section 1.4(A).
4
  Id.
5
  Id.
6
  Id., Section 2(A).
7
  Id., Section 1.4(H).
8
  Id., Section 2(G).
9
  Id.
10
   Id. FAC-C is a certification program of the Federal Acquisition Institute (FAI) that “outlines the training,
education and experience requirements necessary for contracting professionals to be certified.” See
http://www.fai.gov/certification/specialist.asp.
Real Property Leasing Procurement Process                                                    September 30, 2010
Report No. 484
                                                      2
The SEC maintains 2,482,576 square feet of leasehold interests in the following
locations shown in Table 1:

                      Table 1: SEC Lease Locations
                       Lease Locations:
                        Atlanta                   New York
                        Boston                    Philadelphia
                        Chicago                   Salt Lake
                        Denver                    San Francisco
                        Fort Worth                Alexandria, VA
                        Los Angeles               Washington, D.C.
                        Miami
                      Source: OIG Generated

The SEC made total lease payments in the amount of $83,793,456.20 in Fiscal
Years (FY) 2008, and $83,829,952.76 in FY 2009. This represents
approximately 9.2 percent and 8.6 percent of the SEC’s total budget authority for
these FYs, respectively. The SEC’s leasing program is expected to grow, and
leasing costs are expected to increase over the next few years as the agency
expands in order to meet new responsibilities, including those arising under the
Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law No.
111-203, enacted on July 21, 2010.

Objectives
The objectives of our audit were to determine whether OAS had established real
property leasing policies and procedures and to examine whether these policies
and procedures were consistently followed and in compliance with applicable
federal laws, rules, and regulations. Our audit was also performed in order to
ascertain how the Leasing Branch maintains and tracks the SEC’s real property
leases. Lastly, our audit sought to identify the SEC’s current leases and assess
whether the lease requirements were appropriate and the SEC received the best
value for its leasing investments.




Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                              3
               Findings and Recommendations


Finding 1: The SEC’s Leasing Policies and
Procedures Are Inadequate and Incomplete
        The policies and procedures governing the SEC’s real estate
        leasing program are inadequate and incomplete in significant
        respects, and the operating procedures and checklists are
        still in draft form.

SEC Leasing Policies and Procedures. As discussed above, in giving the SEC
independent leasing authority, Congress exempted the SEC from GSA space
management regulations or directives. Our audit found that, while the SEC has
had independent leasing authority since November 1990, approximately 20 years
later, the SEC presently does not have adequate policies and procedures in
place for the SEC’s real estate leasing program. 11 It is critical that the SEC has
adequate policies and procedures in place to ensure that leasing decisions are
made properly and are in compliance with applicable laws, directives and best
practices, and that the SEC receives the best value for its investment. In fact,
Congress intended “that the authority granted the Commission to lease its own
office space directly [would] be exercised vigorously by the Commission to
achieve actual cost savings and to increase the Commission’s productivity and
efficiency.” 12

On May 25, 2010, after we commenced our audit, OAS provided us with a draft
Securities and Exchange Commission Regulation (SECR) 11-03, SEC Leasing
Program, which was intended to prescribe the policies and procedures governing
the SEC’s acquisition of leasehold interests in real property. OAS has informed
us that SECR 11-03 was recently finalized and was approved by the Executive
Director on August 31, 2010. The SECR 11-03, excluding the cover page, table
of contents and attachments, is nine pages in total length and includes over three
pages of definitions. The stated purpose of SECR 11-03 is to establish “uniform
policies and procedures for the acquisition and administration of leasehold
interests in real property for the [SEC].” 13 The SECR also states that “[t]he SEC
will adhere to executive orders and other legal requirements applicable to federal
executive agencies acquiring interests in real property (e.g., National
Environmental Policy Act, Randolph Shepherd Act, Federal Fire Safety Act of

11
   According to OAS, prior to the establishment of the Leasing Branch, written leasing policies were
contained in former SECR 5-8, Space Management Program (August 18, 2005), but this document did not
effectively address the leasing procurement process.
12
   House Conference Report No. 101-924, 101st Cong., 2nd Sess. 1990 at p. 20, reprinted in 1990
U.S.C.C.A.N 3929.
13
   SECR 11-03, Section 1, Purpose and Scope, at p. 1.
Real Property Leasing Procurement Process                                                September 30, 2010
Report No. 484
                                                    4
1992, etc.).” 14 It further provides that “[t]o the extent certain Federal Acquisition
Regulation (FAR) provisions are required by law or statute, the SEC will adhere
to them to acquire and administer leasehold interests in real property.”15 SECR
11-03 also contains very brief descriptions of the responsibilities of various
Commission officials and offices for real property leasing; requires compliance
with various requirements, including certain FAR provisions, Office of
Management and Budget (OMB) notification requirements and the Anti-
Deficiency Act; and establishes the Rural Development Act 16 requirements for
the SEC. The SECR 11-03 has three attachments: a Leasing Acquisition Plan,
a Notification of Lease Action Memorandum, and an OMB Lease Action
Summary for Planning, Budgeting, Acquisition and Management of Capital
Assets. 17

OAS also provided us with a draft of the SEC Leasing Program Operating
Procedures (OP 11-03), which is three pages long and includes draft
attachments containing checklists and guidance for completing those checklists.
Specifically, the draft attachments include a Lease Project Checklist, a Design
and Construction Checklist, and a Lease Administration Checklist. For each
checklist, there is a document providing short explanations for each item and
including a hyperlink to regulations or template forms, if applicable. The draft OP
11-03 indicated that the Leasing Branch planned to issue an internal leasing
handbook by October 2010. 18 However, OAS subsequently stated that OAS now
intends to continue to refine its checklists guidance in lieu of issuing a handbook.

As discussed below, our audit found that the policies and procedures for the SEC
leasing program are inadequate and incomplete in significant respects and need
to be enhanced. The OIG notes that after the OIG brought the deficiencies in
OAS’s draft leasing policies and procedures to its attention, OAS nonetheless
finalized SECR 11-03 on or about August 31, 2010, with minimal changes and
without regard to correcting the deficiencies OIG identified. Overall, SECR 11-03
does not list or describe all of the relevant legal requirements or guidelines, such
as: Executive Order 12072, Federal Space Management; Executive Order

14
   Id., Section 4. Policy, at p. 1.
15
   Id. “The FAR is the primary regulation for use by all Federal Executive agencies in their acquisition of
supplies and services with appropriated funds. It became effective on April 1, 1984, and is issued within
applicable laws under the joint authorities of the Administrator of General Services, the Secretary of
Defense, and the Administrator for the National Aeronautics and Space Administration, under the broad
policy guidelines of the Administrator, Office of Federal Procurement Policy, Office of Management and
Budget.” http://www.gsa.gov/portal/content/104647. “The FAR precludes agency acquisition regulations
that unnecessarily repeat, paraphrase, or otherwise restate the FAR, limits agency acquisition regulations to
those necessary to implement FAR policies and procedures within an agency, and provides for coordination,
simplicity, and uniformity in the Federal acquisition process. It also provides for agency and public
participation in developing the FAR and agency acquisition regulation.” Id.
16
   Section 601 of the RDA, Public Law 92-419, enacted on August 30, 1972, required executive department
and agencies to establish and maintain policies and procedures to give first priority to the location of new
offices and facilities in rural areas.
17
   These attachments were not provided to the OIG during the course of the audit fieldwork; rather, the OIG
obtained the attachments for the first time on September 8, 2010, at the time a copy of the final SECR 11-03
was provided to the OIG.
18
   Draft SEC OP 11-03, SEC Leasing Program Operating Procedures, Section 3.3.
Real Property Leasing Procurement Process                                                  September 30, 2010
Report No. 484
                                                     5
13006, Locating Federal Facilities on Historic Properties in Our Nation’s Central
Cities; Executive Order 13327, Federal Real Property Asset Management; OMB
Circular, A-11, Preparation, Submission, and Execution of the Budget, Part 2,
Preparation and Submission of Budget Estimates, Section 33.1, Construction,
Leases of Capital Assets, and Acquisition of Real Property; OMB Circular A-94,
Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs;
and Office of Federal Procurement Policy Letter 05-01 Subject: Developing and
Managing the Acquisition Workforce. The last bullet of Section 7 of the SECR
states that the requirements of executive orders and public laws that are
applicable to lease acquisitions are too numerous to list in the SECR, are subject
to change, and are further addressed in OP 11-03. 19 In addition, OAS pointed
out that legal authorities such as Executive Order 12072, Executive Order 13006,
OMB Circular A-11 and budget submission requirements and disclosure rate
calculations for present value analysis are included in the Leasing Operating
Procedures checklists. Nonetheless, the OIG believes it is important that these
documents also be referenced in the SECR, which is the controlling policy
document. The references could be included in an Appendix to the SECR, which
could easily be updated as changes occur.

Further, as noted below in the discussion of asset management plan
components, beyond stating that the SEC will adhere to legal requirements, the
SECR does not enumerate any specific objectives the SEC hopes to achieve
with its leasing program. Also, the SECR does not provide instructions or step-
by-step guidance necessary to facilitate compliance with relevant authorities. For
example, while the SECR states that the Leasing Branch will “[p]romote the
competition requirements of FAR Part 6,” 20 the document provides no further
guidance for ensuring compliance with this lengthy and complex part of the FAR
that contains multiple subparts.

Although the SEC, by statute, is not strictly required to abide by GSA space
management regulations or directives, the SEC could significantly benefit from
performing an evaluation of GSA policies and procedures and assessing which
provisions could be adopted to improve the SEC’s leasing program by
establishing some basic guidance or standards to be utilized in the real property
leasing process. The GSA has issued extensive regulations on leasing and
management of real property, including the General Service Administration
Acquisition Manual (GSAM) 21 and Subchapter C of the Federal Management
Regulation (FMR). 22 These documents provide procedures for, among other
things, efficient contracting, including soliciting and evaluating competitive offers
(GSAM Subpart 570.3), safeguarding against improper business practices and

19
   SECR 11-03, Section 7, at p. 8.
20
   SECR 11-03, Section 7, at p. 6.
21
   “The GSAM incorporates the General Services Administration Acquisition Regulation (GSAR) as well as
internal agency acquisition policy.” http://www.gsa.gov/portal/content/101180.
22
   “The FMR is the successor regulation to the Federal Property Management Regulation (FPMR). It
contains updated regulatory policies originally found in the FPMR.”
http://www.gsa.gov/portal/content/104792. Subchapter C of the FMR pertains to Real Property.
Real Property Leasing Procurement Process                                             September 30, 2010
Report No. 484
                                                   6
personal conflicts of interest (GSAM Part 503), and energy conservation (FMR
§§ 102-74.155 through 102.74.200). While OAS stated the SEC has assessed
GSA’s Lease File Checklist and associated guidance, the OIG notes that the
referenced document is over five-years old (it is dated June 28, 2005), and is
limited in subject matter scope to the requirements for lease files.

Asset Management Plan Required by Executive Order 13327. Executive
Order 13327 (February 4, 2004), entitled, “Federal Real Property Asset
Management,” imposes various requirements on federal agencies “in order to
promote the efficient and economical use of Federal real property resources in
accordance with their value as national assets and in the best interest of the
Nation.” 23 While certain Executive Order’s requirements do not apply to the
SEC, the SEC does fall under the purview of Section 6 of the Executive Order,
which provides that the “Director of the Office of Management and Budget shall
review, through the management and budget review processes, the efforts of
departments and agencies in implementing their asset management plans and
achieving the Government-wide property management polices established
pursuant to this order.” 24

The SEC’s Office of General Counsel (OGC) has indicated that SECR 11-03
accomplishes the requirement that the SEC have an asset management plan.
However, our review of the SECR 11-03 revealed that this document is not an
adequate asset management plan. Most fundamentally, the SECR does not set
forth any of the SEC’s objectives for the real property leasing function. Further,
the SECR does not specify resource requirements to support real property
leasing at the SEC. Nothing in the SECR refers to the number of employees or
the amount of funding that will need to be directed toward the real estate leasing
program. While OAS noted that resource requirements are not appropriate
information to include in an SECR, the OIG believes that this is important
information to have in an asset management plan.

In addition, although the stated purpose and scope of SECR 11-03 is to establish
“uniform policies and procedures for the acquisition and administration of
leasehold interests in real property” for the SEC, 25 the SECR pertains almost
entirely to acquisition and includes almost no material related to lease
administration. Specifically, SECR 11-03 does not provide for periodic evaluation
of the SEC’s real property assets. While it contains some guidelines for entering
into leases and alterations in existing leased space, the SECR does not provide
for continuous monitoring or feedback during the life of the lease.

In fact, the SECR 11-03 contains virtually no guidance for managing a lease
throughout the lease term. The leases for the SEC’s regional offices are
managed by the Realty Specialists located in Leasing Branch at Headquarters,

23
   Executive Order 13327, Federal Real Property Asset Management (Feb. 4, 2004), § 1.
24
   Id., § 6(a).
25
   SECR 11-03, Section 1, Purpose and Scope, at p. 1 (emphasis supplied).
Real Property Leasing Procurement Process                                           September 30, 2010
Report No. 484
                                                  7
with the assistance of AOs employed by the regional offices. However, SECR
11-03 does not address the AOs’ roles and responsibilities for the day-to-day
management of leases. OAS staff indicated during the audit that there is no
uniform management plan concerning leases at different sites. OAS staff
explained that the problems that may occur differ greatly depending on the
location, so it would be impractical to implement a uniform method of
management. Instead, an informal best practices approach is used to manage
the leasing process.

Although the SEC is not an agency that must designate a Senior Real Property
Office pursuant to Section 3 of Executive Order 13327 and is, therefore, not
represented on the Federal Real Property Council (FRPC), Section 4 of the
Executive Order states that the Council is established within OMB “for
administrative purposes, to develop guidance for, and facilitate the success of
each agency’s asset management plan.” 26 The FRPC, pursuant to Executive
Order 13327, has issued detailed guidance that specifies the following required
components of an agency asset management plan:

         1.  Integrated Guiding Principles
         2.  Agency-Specific Owner’s Objectives
         3.  Periodic Evaluation of All Assets
         4.  Prioritized Operations and Maintenance and Capital Plans
         5.  Identified Resource Requirements to Support Plans
         6.  “Building Block” Asset Business Plans in Agency Portfolio Context
         7.  Continuous Monitoring and Feedback Mechanism
         8.  Consideration of Socio-Economic-Environmental Responsibilities
         9.  Adequate Human Capital Support of Asset Management
             Organization
         10. Common Government-wide Terminology 27

In order to ensure that the SEC has an adequate asset management plan, OAS
should carefully review these required components and make certain that the
SEC’s asset management plan addresses each of these elements.

Lack of Procedures for Tracking Costs Associated with Leases. Our audit
found that OAS does not have sufficient written procedures that address how
leases should be managed and tracked. OAS’s policies and procedures do not
address what information related to its lease operating expenses should be
tracked and monitored. The Leasing Branch did provide a document titled,
“Current Rent Payment Process,” which describes the steps to be taken in
connection with rent payments. This document states that prior to processing
rent vouchers for payment, lease rent schedules, rent invoices, or other
correspondence that might affect the lease payment are reviewed to determine

26
    Executive Order 13327, § 4.
27
    Federal Real Property Council, Guidance for Improved Asset Management, December 22, 2004, Section
III. Asset Management Plan – Required Components.
Real Property Leasing Procurement Process                                         September 30, 2010
Report No. 484
                                                 8
the appropriate amount of the rent payment. The document also addresses the
verification of funding availability, what steps should be taken if funds are not
sufficient to cover the monthly expenditure, and submitting vouchers and
supporting documentation to the Office of Financial Management (OFM) for
payment. However, the tracking of monthly lease payments, as well as other
related payments, is not addressed in this document.

During our audit, we learned that OAS Leasing Branch staff manually track on a
spreadsheet the monthly lease payments, unliquidated obligations, and
unliquidated balances. Other payments, such as operating expenses, property
taxes or repairs, are also reflected in the spreadsheet, but are only tracked as a
lump-sum amount, rather than individually. The lack of detailed payment data
adversely affects the SEC’s ability to monitor expenses incurred during the
operational phase of the lease. By separately tracking costs, the SEC will know
whether, and by how much, these costs have varied from year to year. Such
information is valuable to management in making future leasing decisions and
can also be used to facilitate the annual budget formulation for leased properties.
OAS’s current method of tracking costs does not contribute to a sound analysis
of financial performance and operating efficiency.

Performance Measures Are Needed. The SEC has published for comment a
draft strategic plan for FYs 2010-2015, which sets forth performance goals and
measures. 28 Strategic Goal 4 of the draft plan states, “Enhance the
Commission’s Performance through Effective Alignment and Management of
Human, Information and Financial Capital.” 29 The draft plan provides that “[t]he
SEC also is extremely mindful of its responsibility to optimize the use of its
resources because it is a government agency entrusted with taxpayer funds.” 30
The draft plan further states that “the SEC must continually direct its financial
resources to their highest and best use, always subject to strong internal
controls.” 31 However, the draft plan does not include performance measures that
address real property leasing, even though the SEC leases approximately 2.5
million square feet of space at an average cost of approximately $83.8 million per
year.

OAS staff informed us during the audit that the Leasing Branch is not required to
have independent goals apart from OAS’s general goals and does not produce
performance reports regarding individual leases. According to OAS, with respect
to regional office leases, the day-to-day performance monitoring is usually
handled by the regional office AOs, which are designated as official Contracting
Officer’s Representatives for lease oversight. According to OAS, the AOs are the
first line of response to problems in tenant space and can directly access the
building property manager for resolution of the types of issues that frequently
28
   U.S. Securities and Exchange Commission, Strategic Plan for Fiscal Years 2010-2015, Draft for
Comment, http://www.sec.gov/about/secstratplan1015.pdf.
29
   Id. at 41.
30
   Id.
31
   Id.
Real Property Leasing Procurement Process                                            September 30, 2010
Report No. 484
                                                  9
arise, such as problems with utilities and maintenance. OAS stated that, if such
issues are not resolved, the Leasing Branch becomes involved for any further or
more stringent lease actions, such as rent deductions, under the default
provisions of the leases. OAS staff maintains overall authority concerning these
issues and communicates directly with the regional AOs that are responsible for
the day-to-day monitoring. The OAS Leasing Branch Chief generally tracks
problems that occur at lease sites by maintaining email records containing
information about complaints, but indicated that there are generally few major
problems with leases and that these problems are tracked by the landlord.

Our audit found, therefore, that OAS has no written performance goals for its real
property leasing activities (operational processes, skills and technology, human
capital, information, and other required resources) and, as a consequence, no
written performance measures to evaluate the goals and assure that goals are
achieved. Without established performance goals and measures, OAS will not
be able to employ a continuous monitoring and feedback mechanism which is a
required component of an asset management plan (see page 8 above).

        Recommendation 1:

        The Office of Administrative Services (OAS) should revise Securities and
        Exchange Commission (SEC) Regulation 11-03 and draft Operating
        Procedure 11-03 (OP 11-03) to ensure that they are adequate and
        complete and include the information identified in the audit report, and
        should finalize OP 11-03 and the attachments thereto. OAS should
        ensure that the revised documents are posted to the Commission’s
        Intranet site and that copies are circulated to all staff within the SEC’s
        Real Property Leasing Branch, as well as other SEC staff with leasing-
        related responsibilities.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 2:

        The Office of Administrative Services should amend Securities and
        Exchange Commission (SEC) Regulation 11-03 to include a complete list
        of relevant authorities (federal statutes, regulations, executive orders,
        Office of Management and Budget circulars, and internal SEC policies)
        that apply to real property leasing and should finalize detailed guidance to
        ensure compliance with those authorities.



Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                            10
        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.
        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 3:

        The Office of Administrative Services should measure the Securities and
        Exchange Commission’s real property leasing policies and procedures
        against pertinent provisions of General Services Administration (GSA)
        regulations, including the GSA Acquisition Manual and Subchapter C of
        the Federal Management Regulation, as appropriate.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 4:

        The Office of Administrative Services should ensure that the Leasing
        Branch’s policies and procedures, including Operating Procedure 11-03
        and the attached checklists, provide comprehensive guidance for
        Securities and Exchange Commission (SEC) leasing officials regarding
        the leasing process that will assist in ensuring compliance with the
        applicable policies, regulations and best practices. These materials
        should detail the regulations and policies that should be followed at the
        various stages of the leasing process and should include pertinent forms
        and examples. Once finalized, these materials should be distributed to all
        staff in the SEC’s Real Property Leasing Branch and other SEC staff with
        leasing-related responsibilities.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 5:

        The Office of Administrative Services (OAS) should utilize the “Required
        Components” section of the Federal Real Property Council’s (FRPC)
        Guidance for Improved Asset Management to develop and finalize the
        Security and Exchange Commission’s (SEC) real property leasing asset
        management plan, as appropriate. If there are any required components

Real Property Leasing Procurement Process                          September 30, 2010
Report No. 484
                                            11
        in the FRPC Guidance that OAS determines should not apply to the SEC,
        the plan should include an explanation as to why the SEC’s unique
        circumstances render those components unnecessary.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 6:

        The Office of Administrative Services should amend its leasing policies
        and procedures to require the tracking and monitoring of all leasing
        expenses (i.e., rent, operating costs and taxes) for informational and
        budget formulation purposes.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 7:

        The Office of Administrative Services (OAS) should develop performance
        goals for the Securities and Exchange Commission’s real property leasing
        activities, including both lease acquisition and the monitoring and
        administration of existing leases; identify key factors external to OAS that
        could significantly affect the achievement of its performance goals; and
        periodically evaluate whether these goals are met.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 8:

        The Office of Administrative Services (OAS) should develop performance
        measures to assist in evaluating the effectiveness of the major functions of
        real property acquisitions and operations, and periodically evaluate
        performance based on these measures. The performance measures
        should include metrics for all of the OAS Branches that have a role in real


Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            12
         property leasing, including the Real Property Leasing, Construction and
         Security Branches.

         Management Comments. OAS concurred with this recommendation.
         See Appendix V for management’s full comments.

         OIG Analysis. We are pleased that OAS concurred with this
         recommendation.

Finding 2: The Lack of Adequate Policies and
Procedures Relating to the Renewal or
Competition of Building Leases that Were
Expiring Contributed to the Payment of
Increased Rent for the San Francisco
Regional Office Space
         The lack of adequate policies and procedures contributed to
         the SEC incurring excess costs in connection with the
         leasing of space for the SEC’s San Francisco Regional
         Office (SFRO).

As discussed in Finding 1 above, the SEC’s policies and procedures for its
leasing program are inadequate and incomplete. Our audit found that the failure
to have adequate policies and procedures in place, specifically with respect to
the planning for the competition or renewal of building leases that are due to
expire, contributed to the SEC incurring significant increased costs in connection
with its SFRO building lease.

The existing lease for the SFRO space at 44 Montgomery Street, San Francisco,
under which the SEC paid rent at a rate of $48.49 per rentable square foot (rsf),
was due to expire on October 31, 2009. 32 According to OAS, planning for a
replacement lease began in July 2007, and an initial pre-solicitation notice
published in December 10, 2007, yielded no expression of interest.
Subsequently, OAS decided to negotiate a lease with the current landlord. OAS
planned to extend the lease for 10 years and had “prepared a sole source
justification for a succeeding lease, which was approved.” 33

OAS stated, however, that between February and May 2009, the Leasing Branch
was advised by its local broker and local occupants of dramatically falling rental

32
   Justification for Other than Full and Open Competition, San Francisco, CA (SF Justification), signed on
June 15, 2009 and approved on June 17, 2009, at p. 2.
33
   Id. at p. 1. According to OAS, the original justification for the succeeding lease was approved in March
2009, and contemplated a 10-year succeeding lease for $49.46 per rsf.
Real Property Leasing Procurement Process                                                   September 30, 2010
Report No. 484
                                                     13
rates in the San Francisco office market. On April 22, 2009, a Lead Realty
Specialist within the Leasing Branch sent an email to OAS, SFRO and OGC
colleagues, noting that a full and open competition should be conducted, instead
of entering into a sole-source lease extension at 44 Montgomery Street. 34 Her
email stated that OAS had “received more market information indicating a
dramatic drop in rental rates in several high class office buildings.” 35 On April 24,
2009, OAS posted a presolicitation notice to the Federal Business Opportunities
(FedBizOpps) website 36 for office space in San Francisco’s financial district. On
May 12-14, 2009, OAS compiled a market survey of eight office properties in San
Francisco. According to OAS, the SEC determined to pursue a full and open
competition and several responses were received reflecting competitive
opportunities.

On June 15, 2009, OAS completed a second justification for other than full and
open competition document to extend the 44 Montgomery Street lease for only
one year, or until October 31, 2010. In this justification, OAS stated that the one-
year extension “will allow sufficient time to negotiate a long term solution.” 37
OAS indicated that the one-year extension was also intended to allow time to
address security issues that had just been brought to OAS’s attention by the
SFRO. The new justification stated that OAS expected to negotiate a price of
approximately $42.24 per rsf for the one-year extension. 38 Without the
extension, the SEC would have to pay “holdover” rent of $60.61 per rsf (125
percent of the current rent rate) if it occupied the 44 Montgomery Street site
beyond October 31, 2009. 39 According to the justification, because the current
lessor was under consideration for the succeeding lease, OAS believed the
lessor would “be motivated to negotiate more favorable terms for the one[-]year
extension.” 40 On July 13, 2009, the Lead Realty Specialist cancelled the
previous sole source long-term lease procurement “[b]ased on new information
regarding security concerns about unauthorized after-hours access and
information that indicates the San Francisco market is declining by over 25%
over last year . . . .”41 The Lead Realty Specialist indicated that OAS had “begun
a full and open competition for a replacement lease.” 42

Almost three months later, on October 6, 2009, during the month in which the
existing lease was due to expire, the SEC issued solicitations for offers (SFO) to
four potential lessors. 43 By November 13, 2009, the SEC had received offers

34
   Email from Contracting Officer, re: SFRO lease procurement strategy, dated April 22, 2009.
35
   Id.
36
   https://www.fbo.gov.
37
   SF Justification, at p. 1.
38
   Id.
39
   Id. at p. 2.
40
   Id.
41
   Memorandum for the File from Contracting Officer, Subject: Cancellation of Sole Source Procurement,
dated July 13, 2009.
42
   Id.
43
   According to OAS, in August 2009, the Leasing Branch received information from management about
unanticipated staff increases and it became apparent that amount of space advertised and planned would
Real Property Leasing Procurement Process                                              September 30, 2010
Report No. 484
                                                  14
from 44 Montgomery Street (the existing home of SFRO) and two other offerors.
The offers were then evaluated by a Source Selection Evaluation Board (SSEB),
which consisted of three voting members (all SEC employees, two from OAS and
one from SFRO) and seven technical advisors (with representatives from SFRO,
OAS, the Office of General Counsel, an architectural firm, and a real estate
broker). After reviewing the offers, the SSEB sent letters to all three offerors
describing the strengths and weaknesses of their proposals. On February 1,
2010, the SSEB sent letters to the offerors requesting final proposals by
February 12, 2010, which were received. On March 10, 2010, the SSEB issued
a source selection report recommending an award to 44 Montgomery Street. On
April 9, 2010, the SEC signed a new 10-year lease at 44 Montgomery Street with
annual rent of $41 per rsf, increasing by $1 each year and providing for
expansion of the existing office space. According to OAS staff, this lower rent
rate does not commence until after construction of the 25th floor.

Meanwhile, the SEC’s existing lease at 44 Montgomery Street had expired on
October 31, 2009, and OAS had not executed the one-year lease extension to
allow for more time until a new lease could be executed. OAS stated that while
the SEC, through its broker, requested a one-year lease extension, the lessor
demanded a three-year lease extension, and the SEC decided to allow the lease
to go into holdover while pursuing competition for a long-term lease at a time
when rates were low. As a consequence, as of November 1, 2009, the SEC
began to pay holdover rent on 43,892 square feet of space, 44 rather than the
$42.24 per rsf the SEC expected to get in a one-year extension and the $41 per
rsf the SEC ultimately agreed to for the lease extension at 44 Montgomery
Street. The SEC continued to pay rent at the higher holdover rate for
approximately six months until it signed the new lease with 44 Montgomery
Street on April 9, 2010. At that time, the SEC also entered into a Supplemental
Lease Agreement with 44 Montgomery Street that modified the previous lease to
extend the term and reduce the rental rate of the lease to the existing lease rate
of $53.34 per rsf, effective as of November 1, 2009. 45 The SEC is continuing to
pay rent of $53.34 per rsf until the new lower rent rate commences upon
completion and acceptance of construction of the 25th floor. As a consequence,
the failure to extend the previous lease prior to its expiration or to enter into a
new one on a timely basis resulted in the SEC paying rent at rates higher than it
would have paid had it executed the one-year lease extension contemplated by
the second justification, during a downturn in the real estate market. We
calculated that even with the credit obtained from 44 Montgomery Street, the
SEC paid higher rent in the amount of approximately $40,600 per month, or


no longer fully provide for the SEC’s long-term needs, and a revised FedBiz Opps notice was published with
no new eligible properties responding.
44
   While the second justification indicated that the holdover rent rate was $60.61 per rsf, OAS staff indicated
that holdover rent was paid at a rate of $66.67 per rsf.
45
   As part of its February 12, 2010 offer for the new lease, 44 Montgomery Street had offered “to credit back
the difference between the Holdover Rent amount and the new term lease rate at the commencement date.”
Proposal to Lease Space, SEC-SFRO-2010, dated February 12, 2010.
Real Property Leasing Procurement Process                                                   September 30, 2010
Report No. 484
                                                     15
$203,000 between November 1, 2009 and March 31, 2010. Thus, the OIG
identified $203,000 in questioned costs, as shown in Table 2, in Appendix VII.

According to OAS, “the lease procurement process can take anywhere from 18
to 24 months for approximately 30,000 to 60,000 square feet including the
competition and build-out.” 46 With the SFRO lease, however, it appears that no
efforts to recomplete the lease were begun until approximately six months before
the existing lease was due to expire and it then took almost six months to issue
the SFOs. Although OAS indicated that it performs acquisition planning 47 and
SECR 11-03 and draft OP 11-03 require compliance with FAR § 7.104(c), 48
these documents do not adequately address acquisition planning. Significantly,
the documents include no policies or procedures designed to ensure that
appropriate planning occurs on a timely basis with respect to the SEC’s leases to
avoid the types of delays and changes in approaches that occurred with respect
to the SFRO lease. The documents contain no reference to FAR § 7.104(a),
which provides that “[a]cquisition planning should begin as soon as the agency
need is identified, preferably well in advance of the fiscal year in which contract
award or order placement is necessary.”

Further, OAS’s policies and procedures include no requirement that Realty
Specialists will seek the best value for the SEC in the planning, acquisition, and
execution of real property lease agreements. Moreover, during our audit, we
found that the Leasing Branch staff were not required to prepare project plans
and did not, in fact, prepare them. An appropriate project plan would include
various tasks necessary to complete the project, including obtaining timely lease
extensions. The project plan could also include the estimated human resources
and costs associated with each task. 49 The OIG notes that Attachment 1 to
SECR 11-03 is a Leasing Acquisition Plan, which was first provided to the OIG
on September 8, 2010. OAS should ensure that this document includes all the
elements of an appropriate project plan and that a plan is required to be
completed for each lease.

In summary, there were no sufficient policies or procedures in place to guide
OAS staff to conduct appropriate acquisition planning, and inadequate planning
contributed to increased costs on the part of the Commission. While OAS
pointed out that changes in market conditions and agency requirements resulted
in altered strategies, the OIG believes that improved policies and procedures for
lease planning would better enable OAS to anticipate and react to potential
changes in conditions or circumstances.
46
   Office of Administrative Services Update, Vol. 2: September 2009.
47
   “‘Acquisition planning’ means the process by which the efforts of all personnel responsible for an
acquisition are coordinated and integrated through a comprehensive plan for fulfilling the agency need in a
timely manner and at a reasonable cost. It includes developing the overall strategy for managing the
acquisition.” FAR § 2.101.
48
   FAR § 7.104(c) requires the planner “coordinate with and secure the concurrence of the contracting officer
in all acquisition planning. If the plan proposes using other than full and open competition when awarding a
contract, the plan shall also be coordinated with the cognizant competition advocate.”
49
   FAR § 7.105 contains requirements for the contents of written acquisition plans.
Real Property Leasing Procurement Process                                                  September 30, 2010
Report No. 484
                                                    16
        Recommendation 9:

        The Office of Administrative Services should revise Securities and
        Exchange Commission Regulation 11-03 and draft Operating Procedure
        11-03 to include complete written policies and procedures for timely
        acquisition planning pertinent to real property leases. The revised policies
        and procedures should require the preparation of a project plan and
        schedule with projected dates for achieving various milestones well in
        advance of the scheduled commencement of a lease.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

Finding 3: The SEC Has Made and Continues to
Make Simultaneous Payments for Two Properties
in New York, One of Which the SEC Has Not
Occupied for Several Years
        The SEC entered into a “Wrap Around Lease and Surrender
        Agreement,” dated March 29, 2005, in order to terminate a
        lease for its New York Regional Office (NYRO) facility, which
        has resulted in the SEC making over $15 million in payments
        for a property it no longer occupied. The SEC also entered
        into a second lease for its NYRO site and has been making
        simultaneous payments for the two facilities since May 2005,
        and will continue to do so until March 2012.

We reviewed a series of documents relating to two leases the SEC entered into
for space for the NYRO to determine if the SEC’s lease requirements were
appropriate and the agency was receiving the best value for its investment.
These two leases included (1) A 10-year lease with 233 Broadway Owners LLC
(the Woolworth Building) on September 27, 2001; and (2) A 15-year lease with
Brookfield Financial Properties on March 25, 2005. Our audit showed that the
following circumstances led to SEC simultaneously making payments for two
buildings in New York City, only one of which was occupied by SEC staff.

Initial New York Lease – 233 Broadway Owners LLC. On September 27,
2001, the SEC entered into a lease with 233 Broadway Owners LLC (the
Woolworth Building) on to serve as its NYRO location. 50 The SEC entered into

50
  Lease No. NYC-SEC-2001, dated September 27, 2001. At the time, the NYRO was referred to as the
Northeast Regional Office.
Real Property Leasing Procurement Process                                      September 30, 2010
Report No. 484
                                               17
this lease after its previous office space located at the World Trade Center was
destroyed as a result of the September 11, 2001 terrorist attacks. According to
OAS, the SEC acted very quickly to find new office space and, at the time, there
was an unprecedented demand for office space in the New York City market.

Under the September 27, 2001 lease, the rentable area of the premises was
140,490 square feet, which included the entire eleventh, thirteenth, fourteenth,
fifteenth, and sixteenth floors. 51 The lease expiration date was 10 years and
three months after the base rent commencement date (which was three months
after the lease commencement date), subject to extension provisions. 52 On April
9, 2002, the SEC elected to lease additional space, including the entire sixth floor
of the building. 53 At that time, the expiration date of the lease was changed to
March 31, 2012, subject to extension. 54 Under the terms of its lease and the
amendments thereto, the SEC had the right to lease additional space in the
building under certain circumstances.

Subsequently, however, the SEC discovered asbestos in the Woolworth Building
and had a dispute with the landlord as to how the issue should be handled. 55 As
a result of the dispute with the landlord, the SEC halted renovation work in its
current space, and any serious discussions regarding expansion in the
Woolworth building came to an end. 56 As noted below, the SEC decided to
relocate its NYRO – a decision that, according to OAS, was made by senior
agency management at a higher level than the leasing staff.

The lease included a clause on “Environmental Matters,” which defined asbestos
as a hazardous material. 57 This clause further stated that the landlord shall
indemnify, defend and hold the tenant harmless from any costs and expenses
that arose at any time during or after the term of the lease as a result of or in
connection with any hazardous materials present or occurring in the premises as
a result of the activities or omissions of the landlord, its agents, employees or on-
site contractors, including costs associated with the cleanup or removal of such
hazardous materials. 58 The clause also required the landlord to “promptly take
all actions, at its sole expense,” necessary to return the premises to their
condition prior to the introduction of hazardous materials, with first obtaining the
approval of the tenant (except in emergency situations). 59 If it was impossible to
return the premises to such condition, the landlord could substitute an alternative



51
   Id. at p. 7.
52
   Id. at p. 12.
53
   First Amendment to Lease No. NYC-SEC-2001, dated April 9, 2002, at p. 1.
54
   Id. at p. 3.
55
   Justification and Approval for Other than Full and Open Competition Lease NYC-SEC-2004 (NYC Lease
Justification), at p. 2.
56
   Id.
57
   Lease No. NYC-SEC-2001 at pp. 58-60.
58
   Id. at p. 59.
59
   Id. at p. 60.
Real Property Leasing Procurement Process                                           September 30, 2010
Report No. 484
                                                 18
action, if such alternative was acceptable to the tenant in its reasonable
discretion. 60

Further, the lease included a clause that addressed default by the lessor. This
clause provided that if the tenant could not reasonably conduct its business
within the premises and actually ceased conducting business within the premises
because the landlord failed to make any repair required under the lease, and this
situation continued for more than five consecutive business days, all rent shall
abate until the tenant re-entered the premises, or one day following the landlord’s
completion of the particular repair. 61 However, the lease included no termination
for convenience clause pursuant to FAR Part 49, which “establishes policies and
procedures relating to the complete or partial termination of contracts for the
convenience of the Government or for default” and “prescribes contract clauses
relating to termination and excusable delay and includes instructions for using
termination and settlement forms.” 62

According to OGC staff, after the allegations of asbestos arose, asbestos tests
were performed on the Woolworth Building. These tests revealed no asbestos
dust in the air, but some asbestos in the wallboard. OGC staff indicated that the
asbestos levels were not sufficient to warrant special procedures or to
demonstrate that the landlord was in breach of contract.

Justification for and Entry into Second NYRO Lease (Brookfield Financial
Properties). On April 28, 2004, SEC officials signed a “Justification and
Approval for Other than Full and Open Competition” to obtain a new NYRO
lease, “provided that the successor landlord assumes all the SEC’s remaining
obligations at the Woolworth Building, thus ending the SEC tenancy and all
Government obligations there.” 63 The justification indicated that the nature of the
acquisition required use of the authority under FAR § 6.302-2, Unusual and
Compelling Urgency, 64 and cited “two related components of such urgency and
harm.” 65 The first component was that the SEC did not have adequate space to
accomplish its mission, given that operational workload had substantially
increased and Congress had directed the SEC to hire additional staff (increasing
NYRO staff from 311 to 395). 66 The second component was that the health and
morale of SEC employees was negatively impacted by the above-mentioned
discovery of asbestos that led to the dispute with the landlord and delays in any
expansion of the work space. 67 The justification further asserted that the dispute

60
   Id.
61
   Id. at p. 68.
62
   FAR § 49.000.
63
   NYC Lease Justification, at p. 1.
64
   Under FAR § 6.302-2(a)(2), an agency may contract without providing for full and open competition
“[w]hen the agency’s need for the supplies or services is of such an unusual and compelling urgency that the
Government would be seriously injured unless the agency is permitted to limit the number or sources from
which it solicits bids or proposals . . . .”
65
   NYC Lease Justification at p. 2.
66
   Id.
67
   Id.
Real Property Leasing Procurement Process                                              September 30, 2010
Report No. 484
                                                    19
and delays “has led to significant reduction in NYRO staff morale, has hurt
recruitment of new and additional staff, and has resulted in significant financial
costs to protect SEC employees from potential asbestos excursions.” 68 The
justification also asserted that the SEC and its NYRO employees were not
confident that the asbestos problem could ever be fully resolved. 69

According to the justification, the SEC faced financial exposure of approximately
$63,205,000, flowing from its Woolworth Building lease obligations through April
2012. 70 The justification specifically included a requirement that “the successor
landlord will assume all the SEC’s remaining obligation at the Woolworth
Building.” 71 The justification also noted that “even if the remaining costs of the
current lease are not completely mitigated, or are only partially mitigated, the
agency considers the costs appropriate to resolve the overcrowding, morale and
intractable landlord reasons set forth above.” 72

On March 25, 2005, the SEC entered into a lease with Brookfield Financial
Properties for 235,102 rsf. The lease did not require Brookfield Financial
Properties to assume the SEC’s remaining obligation at the Woolworth Building,
as the justification for the sole source award of this lease had indicated.
However, under the terms of the lease, the payment of rent did not commence
until approximately one-year later on April 1, 2006. 73 As a consequence, the
SEC was responsible for paying operating expenses only during the first year of
this lease. In addition, according to OAS, Brookfield Financial Properties offered
rates that were lower than the rates remaining for the Woolworth Building lease.

Wrap Around Lease and Surrender Agreement. The SEC also contacted
GSA, which found a tenant to move into the building. Accordingly, a “Wrap
Around Lease and Surrender Agreement” was entered into with the Woolworth
Building landlord (233 Broadway Owners LLC) on March 29, 2005. 74 Under the
terms of this Agreement, the landlord agreed that the SEC’s previous lease
would terminate, provided that the SEC made certain payments to the landlord,
and the landlord and GSA executed a lease for the premises (the GSA Lease). 75
The Agreement also provided that the SEC would surrender a portion of the

68
   Id.
69
   Id.
70
   Id. at p. 3.
71
   Id.
72
   Id.
73
   Lease No. SEC-NY-2005, dated March 25, 2005, at p.4.
74
   A “wrap around” lease is similar to a sublease. “In commercial real estate, a sublease is a lease (rental
agreement) between a tenant who already holds a lease to a commercial space or property and someone
(the sublessee) who wants to use part or all of the tenant's space. In a sublease, the tenant assigns certain
rights that they already hold to the leased property, to the sublessee.”
http://womeninbusiness.about.com/od/commercialleasing terms/g/sublease.htm. “Sublessees pay rent
directly to the rightful tenant (sublessor) to either share the space with the sublessor or take over the entire
space from the sublessor.” Id. “A sub-lessor cannot legally assign rights in a sub-lessee that the sub-lessor
does not also have rights to in their own lease. Additionally, a sublessor cannot sublease unless they are
permitted to do so in their own lease.” Id.
75
   Wrap Around Lease and Surrender Agreement, dated March 29, 2005, at p. 1.
Real Property Leasing Procurement Process                                                    September 30, 2010
Report No. 484
                                                      20
premises on May 31, 2005 (the “First Surrender Date”), and the remainder of the
premises on June 30, 2005 (the “Second Surrender Date”). 76

In addition, the Wrap Around Lease and Surrender Agreement set forth in detail
the amount of payments the SEC would make to the landlord under various
scenarios, i.e., if the GSA Lease was executed by the landlord and GSA; if the
GSA Lease was renewed by GSA beyond the five-year lease term; and if the
GSA Lease was extended beyond its original expiration date but expired or
terminated prior to March 31, 2012, for any reason other than the Landlord’s
default. 77 The Agreement also required the SEC, in addition to the foregoing
payments, to pay “Work Contribution” of approximately $5 million to be applied to
tenant improvement expenses incurred by the landlord or GSA in connection with
the GSA Lease. 78

Simultaneous Lease Payments. The SEC has made simultaneous payments
related to New York leases since May 2005. Under the Wrap Around Lease and
Surrender Agreement, the SEC has paid $15,235,994.37 toward the Woolworth
Building lease, even though no SEC employees have occupied that building
since June 30, 2005. This amount was calculated based upon information
provided by OFM for the period from the First Surrender Date of the Wrap
Around Lease and Surrender Agreement (May 31, 2005) through the end of the
period within our audit scope (March 31, 2010). During the same time period,
according to the information provided by OFM, the SEC made payments to
Brookfield Financial of $35, 837,125.92 under the second lease. The SEC will
continue to make partial payments toward the Woolworth Building lease until
March 31, 2012.

The lack of SEC guidance for (1) evaluating options prior to vacating leased
space or terminating a lease; and (2) including a termination for convenience
clause or a broader, more inclusive default clause in a lease, or using flexible-
lease terms, contributed to the SEC paying millions of dollars for space that it did
not occupy. A more structured process for evaluating options prior to terminating
lease may have led to another solution of the problems with the Woolworth
Building lease that would have avoided duplicate lease payments. Additionally,
the inclusion of a termination for convenience clause or a broader, more inclusive
default clause in the lease, or the use of a shorter or flexible-term lease, would
have provided the SEC with more options that would not have resulted in
simultaneous lease payments being made for two office locations.




76
   Id.
77
   Id. at p. 2. GSA did execute a lease with the landlord. Subsequently, GSA exercised the lease renewal
option at the Woolworth Building in July 2009, extending the lease through October 31, 2015, and no portion
of the lease can be terminated earlier than in 2012. Email to SEC Contracting Officer from GSA Region 2
Special Projects Manager, Subject: GSA Lease GS-02B-23401, dated November 4, 2009.
78
   Id. at pp. 2-3.
Real Property Leasing Procurement Process                                                September 30, 2010
Report No. 484
                                                   21
        Recommendation 10:

        The Office of Administrative Services (OAS) should adopt evaluation
        procedures that involve scoring and ranking various options prior to
        deciding to vacate leased premises or to terminate a lease. OAS should
        develop a transparent methodology for how it formulates its scores and
        rankings, including an explanation of any numerical scores used to rank
        various options.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 11:

        The Office of Administrative Services, in consultation with the Office of
        General Counsel, should ensure that the Securities and Exchange
        Commission’s (SEC) real property leases provide appropriate protections
        in the event the SEC needs to terminate a lease before the expiration
        date, such as, for example, the use of a termination for convenience
        clause under Part 49 of the Federal Acquisition Regulation, another
        appropriate clause, or a flexible-term lease.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.


Finding 4: Improved Coordination Is Needed
Between the OAS Leasing and Security Branches
to Ensure the Necessary Security Information Is
Obtained Prior to Entering into a Lease
        The Security and Safety Assessment document developed
        by the Security Branch requires improvement. Moreover,
        the failures to include a Building Security Survey with the
        solicitation for short-term lease in Alexandria, Virginia or to
        complete a Security and Safety Assessment resulted in the
        incurrence of additional costs to secure the facility.


Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                            22
The Interagency Security Committee (ISC) 79 releases security standards for
government leased space. ISC standards are issued by the Department of
Homeland Security and provide for four levels of security standards that are
based on the number of government personnel occupying the space or the
square footage leased. The OAS Security Branch provides advice to the Leasing
Branch on safety, security, and emergency management for leased facilities.
The final security requirements are negotiated by the Leasing Branch and the
building owner. The specific security terms become a part of the lease and
execution/completion of the terms are verified by the Security Branch prior to
SEC employees occupying a building.

The Leasing Branch Chief and Security Branch Chief are relatively new OAS
employees, both arriving in 2008. Our audit found that since that time, the two
branches have been working hard to coordinate their efforts by developing
security-related documents to be used in the real property leasing process. Two
recently-developed documents currently in use by the two branches are the
“Building Security Survey” and “Security and Safety Assessment.”

The Building Security Survey and Physical Security Review of Proposed
Locations. For each real property lease, the Security Branch provides to the
Leasing Branch a Building Security Survey, which becomes a part of the SFO.
An offeror’s responses to Building Security Survey provide details on the current
security posture of the proposed buildings. In addition, the survey presents the
offeror the opportunity to include any proposed security improvements or
enhancements.

After the offers have been received, the Leasing Branch sends the Security
Branch a list of the buildings that are being considered for lease. The Security
Branch then determines the threats located within 1,000 meters of the
prospective locations. To determine the potential threats, the Security Branch
staff works with national, state and local officials, including both civil and law
enforcement components, to obtain information on the neighborhoods in which
the prospective building sites are located. After the potential threats are
determined, the Security Branch staff decides what countermeasures can be put
into place to lessen the threats. Security Branch staff perform a physical review
of each site, develop a report (the Security and Safety Assessment, see below),
and provide a recommendation to the Leasing Branch as to what security
measures should be implemented at the site.

The Security and Safety Assessment. The Security and Safety Assessment is
a six-part document developed by the Security Branch. This document is


79
   “The ISC’s mandate is to enhance the quality and effectiveness of physical security in, and the protection
of buildings and civilian federal facilities in the United States. The ISC standards apply to all civilian federal
facilities in the United States—whether government-owned, leased or managed; to be constructed or
modernized; or to be purchased.” http://www.dhs.gov/files/committees/gc_1194539370126.shtm.
Real Property Leasing Procurement Process                                                    September 30, 2010
Report No. 484
                                                       23
designed to evaluate and, if warranted offer options to improve, the security
posture of the facility.

Although the Security and Safety Assessment document includes some valuable
information, our audit found that it could be improved. Parts 3 through 6 of the
survey discuss the Security Branch’s assessment of the potential lease site. Part
3 is an evaluation of threats and impact of loss based upon the Security Branch
staff’s interviews of law enforcement officials and review of crime databases to
determine the threats to the local area surrounding the building. This section of
the survey could be improved to include the number of recent incidents in the
area and the likelihood that future incidents will occur. Part 4 is an evaluation of
countermeasures and vulnerabilities. In the vulnerabilities section, the Security
staff should include their best estimate of the likelihood that the identified
vulnerabilities will be exploited. Part 5 pertains to risk management and
discusses the recommendations to reduce identified risks. This section could be
improved to include a recommendation for countermeasures based on the
likelihood of occurrence of the identified vulnerabilities. Part 6 states the
conclusions reached by the Security staff. This section should include a cost
estimate for the security measures that will be required and could be developed
by contacting agencies in the area with similar security measures. The Security
Branch could also base its cost estimates on the actual security costs incurred
for currently-occupied, similarly-sized SEC facilities. These additions to the
survey will provide additional information that will be very helpful in conducting
lease negotiations. 80

Extra Security Costs Incurred at Temporary Facility in Alexandria, Virginia.
On January 28, 2010, the SEC entered into a short-term lease 81 with Cafferty-
Shawnee L.L.C., for temporary space on the fourth floor of a building located in
Alexandria, Virginia, to commence on March 1, 2010. According to OAS, the
additional space was required because the SEC’s existing Operations Center
facility was at capacity. As far as building security was concerned, the lease
agreement required the lessor to provide a guard station, which included a
podium and two high chairs. 82 The lease, however, did not require an armed
guard to be stationed at the facility. 83 We also found that no Building Security

80
   The OIG acknowledges that some of the information to be included in the Security and Safety
Assessment will be sensitive in nature, such that OAS may wish to ensure that the document is
appropriately marked and stored to avoid any compromise of the SEC’s security posture.
81
   The lease was for a term of three years, with 18 months firm, beginning on March 1, 2010. Letter to the
landlord from SEC Contracting Officer, dated January 28, 2010.
82
   Lease No. SEC-AUXOPC-2010, dated January 28, 2010, at p. 2.
83
   A provision that the “[l]essor will be responsible for providing at the expense of the SEC and upon
submission of proper invoice, an off duty armed police officer or Deputy Sheriff authority to carry a firearm
and have the ability and equipment needed to react to an emergency security incident for a period of 12
hours per day,” listed under “UNIQUE REQUIREMENTS,” was crossed-out and initialed by the lessor and
the government. Id. Similar provisions, some of which referred to the SEC bearing this expense, were
crossed-out and initialed by the lessor and the government on SFO SEC-AUXOPC-2010, and Amendments
1 and 2 thereto. OAS explained that these provisions were crossed out because, at the time of the
expedited lease action, the landlord was having difficulty obtaining confirmation from local authorities of the
ability to obtain the services of an off duty police officer for the lease. Hence, according to OAS, the
Real Property Leasing Procurement Process                                                    September 30, 2010
Report No. 484
                                                     24
Survey was included with the SFO for this lease and no Security and Safety
Assessment was completed for this location. OAS indicated, however, that
members of the OAS Security Branch participated in visits to the four potential
sites identified by a pre-lease survey conducted on January 13, 2010.

OAS further stated that the SEC validated that there was a high crime threat in
the area in which the leased temporary space was located. As a consequence,
the SEC explored options for appropriately securing the SEC’s leased space. It
was determined that developing computerized access for this building would cost
between $300,000 and $500,000, and that this would not be a cost-effective
measure, given that the SEC had entered into a short-term lease. OAS decided
that the most cost-effective-option was to pay to have the landlord hire an off
duty police officer (with permission from the local Chief of Police) at a cost of
$200,000 per year and to place unarmed guards on the floor occupied by the
SEC at the SEC’s expense. As a consequence, the SEC is currently paying for
the full cost of an armed police officer at a facility where it is only occupying one
of four floors. OAS noted that the other tenant in the building already has a
security solution (i.e., an electronic access system) in place.

OAS acknowledged that the Building Security Survey and the Security and
Safety Assessment were not completed for the temporary space lease, noting
that the finalized Building Security Checklist document and SFO paragraphs
were agreed to and finalized by the Security and Leasing Branches in May 2010
(after the negotiation of the lease in question). 84 While OAS maintains that it is
not clear that use of the forms would have resulted in cost savings, if the
appropriate security documents had been utilized in connection with this lease,
the Leasing Branch would have been better equipped to negotiate for adequate
security of the facility to be provided as part of the initial lease document,
rendering it unnecessary for the SEC to enter into a lease amendment requiring it
to pay an additional amount for security at this location.

         Recommendation 12:

         The Office of Administrative Services should revise the Security and
         Safety Survey document to include more specific information, i.e., the
         number of recent incidents in the vicinity and the likelihood of future
         incidents to occur, a best estimate of the likelihood of the indentified
         vulnerabilities to be exploited, recommended countermeasures based on
         the likelihood of the identified events to occur, and cost estimates for
         recommended countermeasures.

requirement was eliminated from the lease until the details could be worked out between the SEC and the
landlord. Pursuant to Supplemental Lease Agreement No. 2, dated March 30, 2010, the lessor agreed to
provide an off duty armed police officer for 12 hours from Monday through Friday at an annual cost of
$200,000, to be paid monthly by the SEC.
84
   OAS further noted that in late April or early May 2010, the Security and Leasing Branches reached an
agreement regarding how the branches would coordinate security-related activities in the leasing program,
although it indicated that the two branches coordinated security prior to that time, e.g., in February 2009.
Real Property Leasing Procurement Process                                                    September 30, 2010
Report No. 484
                                                     25
        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 13:

        The Office of Administrative Services should implement final policies and
        procedures to ensure that the Real Property Leasing Branch consistently
        includes the Building Security Survey document in all solicitations for
        officers for leased building space.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.

        Recommendation 14:

        The Office of Administrative Services should implement final policies and
        procedures to ensure that the Security Branch performs a physical review
        of prospective building locations and determines the threat within the
        immediate area prior to entering into a lease for any facility.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.




Real Property Leasing Procurement Process                          September 30, 2010
Report No. 484
                                            26
                                                                          Appendix I


                                       Acronyms

AOs                              Administrative Officers
FAC-C                            Federal Acquisition Certification for Contracting
FAR                              Federal Acquisition Regulation
FedBizOpps                       Federal Business Opportunities
FY                               Fiscal Year
FRPC                             Federal Real Property Council
GSA                              General Services Administration
GSAM                             General Service Administration Acquisition Manual
ISC                              Interagency Security Committee
NYRO                             New York Regional Office
OAS                              Office of Administrative Services
OFM                              Office of Financial Management
OGC                              Office of the General Counsel
OIG                              Office of Inspector General
OIT                              Office of Information Technology
OMB                              Office of Management and Budget
OP                               Operating Procedures
RCO                              Realty Contracting Officer
rsf                              Rentable Square Foot
SEC or Commission                U.S. Securities and Exchange Commission
SECR                             Securities and Exchange Commission Regulation
SFO                              Solicitation for Offer
SFRO                             San Francisco Regional Office
SLA                              Supplemental Lease Agreement
SPE                              Senior Procurement Executive
SRPO                             Senior Real Property Officer
SSEB                             Source Selection Evaluation Board




Real Property Leasing Procurement Process                             September 30, 2010
Report No. 484
                                            27
                                                                       Appendix II


                          Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The scope of the audit covered the period from January 2008 through
March 2010, and included a review of any internal written policies and
procedures for real property leasing and the relevant procurement documents.

Methodology. To determine if OAS established real property leasing policies
and procedures and to determine if these policies and procedures were in
compliance with applicable federal guidance and were consistently followed, the
OIG obtained copies of all real property leasing policies and operating
procedures (including drafts) from OAS, as well as copies of applicable federal
laws, rules, and regulations that apply to real property leasing. We reviewed and
compared the SEC’s draft policies and procedures to the applicable federal
guidance. In addition, for each new real property lease, we obtained copies of all
documents used or developed during the procurement process, and analyzed
and compared the documents received to documents listed in OAS’s real
property leasing draft policies and operating procedures. Further, we conducted
interviews with SEC staff that have real property leasing responsibilities.

To ascertain how OAS maintains and tracks the SEC’s real property leases, we
identified the universe of the SEC’s real property leases and inquired about the
leasing staff’s methods for managing, tracking, and maintaining oversight of
leased properties. We also compared the staff’s method of lease management
to governing precedence.

To assess the lease requirements and determine if the SEC was receiving the
best value for its investment, we utilized the universe of the SEC’s real property
leases noted above, selected a sample of leases to assess and obtained copies
of all related, pertinent lease documents. We further interviewed the Leasing
Branch Chief to determine if OAS had real property leasing performance
measures to assess lease operations. We also interviewed the Security Branch
Chief, obtained copies of the Security Branch’s safety requirements, and
determined the analysis performed by the Security Branch to develop the safety
requirements recommended to the Leasing Branch.

Internal Controls. We assessed the internal controls and their significance in
the context of our audit objectives by considering the following components:

Real Property Leasing Procurement Process                          September 30, 2010
Report No. 484
                                            28
                                                                            Appendix II


        •   Identifying designated internal control officials for the entity subject to
            the audit, and determining their participation in the internal control
            program and their support for internal control objectives;
        •   Determining whether the audit area was included in a self-evaluation
            process;
        •   If management evaluated its performance regarding internal controls,
            using that evaluation as the basis for evaluating the adequacy of the
            self-evaluation process; and
        •   Determining the adequacy of management’s self-evaluation.

The Internal Control Officer for OAS is the Associate Executive Director of OAS,
who is responsible for ensuring that sound, economical and efficient internal
controls are in place.

The OIG’s review of internal controls determined that, at the time of the audit
fieldwork, the SEC did not have any final internal policies and procedures
governing its real property leasing procurement. SECR 11-03, SEC Leasing
Program, which prescribes the policies and procedures governing the acquisition
of leasehold interest in real property for the SEC was finalized and approved on
or about August 31, 2010, after our audit fieldwork was conducted.

During our audit, we reviewed the draft internal policies and procedures
pertaining to real property leasing that OAS provided and evaluated the
adequacy and completeness of these documents. We found that OAS has not
established performance measures to track lease performance, and there is no a
uniform system/document for tracking leases.

Further, per Executive Order 13327, OAS should have an asset management
plan. The OGC believes that SECR 11-03 satisfies this requirement. However,
SECR 11-03 is missing many of the required components for an asset
management plan set forth by the FRPC.

During an interview with OAS staff, it was determined that OAS does not have
any leasing performance measures. OAS does not produce performance reports
regarding individual leases. According to OAS, day-to-day performance
monitoring is usually handled by regional office staff (AOs) because they are the
first line of response to problems in tenant space and can directly access the
building property manager for resolution of the types of issues that occur more
frequently, such as with problems with utilities and maintenance. In addition,
OAS staff indicated that there is no uniform collective management plan
concerning the various leases.

During the audit entrance conference, OAS management was asked to provide
copies of internal reports or assessments that were issued regarding real
property leasing. OAS management responded that assessments were
performed, but that they were not reflected in writing. Because any internal
Real Property Leasing Procurement Process                               September 30, 2010
Report No. 484
                                            29
                                                                       Appendix II

control evaluations performed by management were not in writing, we were
unable to determine the adequacy of any self-evaluation.

Use of Computer-Processed Data. We determined that the computer-
generated data from the SEC’s Momentum financial system could be relied on
for the purposes of this audit.

Momentum is the one major system affecting real property leasing. Momentum
serves as the SEC's financial accounting system and is used to track the
agency's budget, obligations, expenditures and balances. The system owner is
OFM.

The General Accountability Office (GAO) performs an annual audit of the SEC’s
financial statements. In the financial statement audit for Fiscal Years 2009 and
2008, GAO identified six significant deficiencies that collectively represented a
material weakness in the effectiveness of internal controls over financial
reporting.

To determine if the financial data from Momentum could be relied on, we
performed an analysis of the amounts of lease payments authorized by OAS and
the amounts actually recorded in Momentum. To perform the analysis, we
obtained a computer-generated report from Momentum showing all monthly
lease payments made from March 2008 through March 2010. From the report,
we chose a sample of payments to verify. For the sample items selected, we
obtained copies of the “Monthly Rental Voucher” (signed by the OAS COTR) and
compared the amount authorized by OAS to the amount listed on the report. We
did not identify any discrepancies between the amounts recorded in Momentum
and the amounts authorized for payment by OAS.

Prior Audit Coverage. We reviewed SEC OIG and GAO reports relating to real
property leasing to identify issues and risk areas. While all of the
recommendations from the prior OIG Audit Report, No. 330, dated May 31, 2001,
had been closed, we found that management had not, in fact, fully implemented
the OIG’s Recommendations B and E.

        Recommendation B. “OGC should document its review of real
        property leases by including a memorandum in the leasing file.”
        OAS stated that OGC reviews all lease actions and that the reviews
        are typically documented by email comments and approvals that
        are placed in the lease files. The OIG believes that, consistent with
        the prior recommendation, all lease files should contain
        documentation reflecting OGC review of the lease.

        Recommendation E. “OAPM [now OAS] should provide the field
        offices with additional guidance and training on follow-up
        procedures for building maintenance services.” OAS stated that

Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            30
                                                                         Appendix II

        regional office AOs are issued delegation of Contracting Officer’s
        Representative authority letters that spell out their responsibilities.
        However, OAS stated that it did not believe any further training was
        required for regional office leasing programs. The OIG believes
        that, consistent with the prior recommendation, OAS should explore
        possible training for regional office staff who have leasing
        responsibilities.

The OIG previously issued Report No. 471, Audit of the Office of Acquisitions’
Procurement and Contract Management Functions, on September 25, 2009.
Although this audit did not specifically concern real property leasing, the audit
assessed the SEC’s procurement and contract management processes and
functions, which do impact leasing. Also, the same SEC office, OAS, oversees
the agency’s procurement and contracting and real estate leasing functions.
Therefore, we reviewed the findings of audit report No. 471 and designed our
audit objectives and audit steps to test for similar issues or risk areas in the area
of real property leasing.

GAO’s report on Federal Real Property – Strategy Needed to Address Agencies
Long-standing Reliance on Costly Leasing, GAO-08-197 was issued in January
2008. To evaluate federal leasing trends and challenges, GAO analyzed data
obtained from the Federal Real Property Council (FRPC) and OMB. GAO also
examined ten federal leases (none of which were SEC leases) to determine the
estimated cost of leasing versus the cost of new construction. In addition, GAO
analyzed administrative and agency efforts to address long-standing problems in
real property. Also in this report, GAO noted that, in January 2003, it had
designated federal real property leasing as a high-risk area, citing the
government’s overreliance on costly leasing as one of the major reasons for this
designation.

Although the GAO’s report did not specifically address the SEC’s leases or those
of any other financial regulatory agency, we reviewed the GAO’s findings and
designed our audit objectives and audit steps to test for similar issues. The
GAO’s findings that we determined might be issues or risk areas at the SEC
were:

    1. Data quality remains a challenge.
    2. Decisions to lease selected properties are not always driven by cost-
       effectiveness considerations.

Based on our analysis of the above listed SEC OIG and GAO reports, the
following objectives were developed:

    •   Ascertain how the Real Property Leasing Branch maintains and tracks the
        SEC’s real property leases.
    •   Identify current leases and assess whether the SEC lease requirements

Real Property Leasing Procurement Process                             September 30, 2010
Report No. 484
                                            31
                                                                         Appendix II

        are appropriate, and whether the SEC receives the best value for its
        investment.

Assessment of Audit Risk and Materiality. We assessed the audit risk and
significance in the context of the audit objectives considering the following:
   • Nature and profile of the program and the needs of users of the audit
        report.
   • Internal controls as they relate to the specific audit objectives and scope of
        the audit.
   • Legal and regulatory environment, and potential waste, fraud, and abuse
        in the context of the audit objectives.

Overall, our assessment concluded that the audit risk is high due to SEC’s
significant investment of funds in leased facilities and the lack of established real
property leasing policies and procedures. At the time we performed our audit
fieldwork, all of OAS’s leasing policies and procedures were in draft form, and
there were no final policies and procedures in place.




Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                            32
                                                                       Appendix III


                                            Criteria

Section 4(b)(3) of the Securities Exchange Act of 1934, 15 U.S.C. §
78d(b)(3). Gives the SEC independent leasing authority and exempts it from
GSA space management regulations or directives. Enacted by Public Law 101-
550 on November 15, 1990.

House Conference Report No. 101-924, 101st Cong., 2nd Sess. (Oct. 23,
1990), reprinted in 1990 U.S.C.C.A.N. 3929. Contains the legislative history for
Public Law 101-550, which provided the SEC with independent leasing authority.

Limitations on Expending and Obligating Amounts (Anti-Deficiency Act), 31
U.S.C. § 1341. Prohibits incurring commitments, obligations or expenditures in
excess of amounts available for such purposes.

Section 601 of the Rural Development Act of 1972. Requires executive
department and agencies to establish and maintain policies and procedures to
give first priority to the location of new offices and facilities in rural areas.
Enacted by Public Law 92-419 on August 30, 1972.

Federal Managers Financial Integrity Act of 1982. Requires ongoing
evaluations and reports of the adequacy of the systems of internal accounting
and administrative control of each executive agency. Provides that the internal
accounting and administrative controls of each executive agency should provide
reasonable assurance that (1) obligations and cost comply with applicable law;
(2) funds, property and other assets are safeguarded against waste, loss,
unauthorized use or misappropriation; and (3) revenues and expenditures are
properly accounted for and recorded. Enacted by Public Law 97-255 on
September 8, 1982.

Executive Order 13327, Federal Real Property Asset Management. Contains
guidance to promote the efficient and economical use of Federal real property
resources, and requires that departments and agencies have asset management
plans. Issued on February 4, 2004.

Executive Order 13006, Locating Federal Facilities on Historic Properties in
Our Nation’s Central Cities. Directs agencies, when operationally appropriate
and economically prudent, to give first consideration to historic properties within
historic districts when locating federal facilities. Issued on May 21, 1996.

Executive Order 12072, Federal Space Management. Provides that, except
where otherwise prohibited, the process for meeting Federal space needs in
urban areas shall give first consideration to centralized community business
areas or adjacent areas of similar character. Issued on August 16, 1978.

Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                               33
                                                                      Appendix III


Federal Acquisition Regulation (FAR), Title 48 of the Code of Federal
Regulations. Contains the primary regulation for use by all Federal Executive
agencies in their acquisition of supplies and services with appropriated funds.
Became effective on April 1, 1984, and was issued within applicable laws under
the joint authorities of the Administrator of General Services, the Secretary of
Defense, and the Administrator for the National Aeronautics and Space
Administration, under the broad policy guidelines of the Administrator, Office of
Federal Procurement Policy, OMB.

FAR Part 6 – Competition Requirements. Prescribes policies and procedures
to promote full and open competition in the federal acquisition process, and
provides for full and open competition, full and open competition after exclusion
of sources, other than full and open competition, and competition advocates.

FAR Part 7 – Acquisition Planning. Prescribes policies and procedures for
developing acquisition plans, among other things.

FAR Part 49 – Termination of Contracts. Establishes policies and procedures
relating to the termination of contracts for the convenience of the government or
for default. Prescribes contract clauses relating to termination and excusable
delay.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
Part 2, Preparation and Submission of Budget Estimates. Sets forth the
requirement for submitting budget estimates for all federal agencies. Section
33.1 of Part 2 pertains to estimates for construction, leases of capital assets and
acquisition of real property. Issued in July 2010.

OMB Circular A-11, Preparation, Submission and Execution of the Budget,
Part 8, Appendices, Appendix A, Scorekeeping Guidelines. Contains
scorekeeping guidelines that are used by the House and Senate Budget
Committees, the Congressional Budget Office, and OMB to measure compliance
with pertinent statutes. Issued in July 2010.

OMB Circular A-11, Preparation, Submission and Execution of the Budget,
Part 8, Appendices, Appendix B, Budgetary Treatment of Lease-Purchases
and Leases of Capital Assets. Provides instructions on the budgetary
treatment of lease-purchases and capital assets leases consistent with the
scorekeeping rule developed by the executive and legislative branches in
connection with the Budget Enforcement Act of 1990, as revised. Issued in July
2010.
OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost
Analysis of Federal Programs. Aims to promote efficient resource allocation
through well-informed decision-making by the federal government. Provides
general guidance for conducting benefit-cost and cost-effectiveness analyses,
and specific guidance on discount rates to be used in evaluating federal
Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            34
                                                                    Appendix III


programs whose benefits and costs are distributed over time. Revised on
October 29, 1992.

OMB Policy Letter 05-01. Establishes the government-wide framework for
creating a federal acquisition workforce with the requisite skills. Defines the
acquisition workforce to include individuals who perform various acquisition
functions to support the accomplishment of the agency’s mission. Prescribes the
training requirements for members of the acquisition workforce.

Federal Real Property Council (FRPC) Guidance for Improved Asset
Management. Addresses the FRPC guiding principles, required components for
an agency asset management plan, property inventory data elements, and
government-wide performance measures. Issued on December 22, 2004.

SECR 11-03, SEC Leasing Program. Prescribes the policies and procedures
governing the acquisition of real property leasehold interests for the SEC.
Provides that the SEC will adhere to all Executive Orders and legal requirement
applicable to federal executive agencies acquiring leasehold interest in real
property. Issued in August 2010.

SECR 10-02 (REV 2), SEC Contracting Authorities and Appointments.
Establishes uniform policies and procedures for the acquisition of products and
services for the SEC. Issued on March 31, 2010.

OP 11-03, SEC Leasing Program Operating Procedures (Draft). Provides
guidance supplementing SECR 11-03, and details activities for acquisition and
administration of leasehold interest in real property. Attaches lease checklists
and guidance containing information and instructions the various tasks required
during lease acquisition, design and construction phase and lease administration.




Real Property Leasing Procurement Process                         September 30, 2010
Report No. 484
                                            35
                                                                      Appendix IV


                        List of Recommendations

Recommendation 1:

The Office of Administrative Services (OAS) should revise Securities and
Exchange Commission (SEC) Regulation 11-03 and draft Operating Procedure
11-03 (OP 11-03) to ensure that they are adequate and complete and include the
information identified in the audit report, and should finalize OP 11-03 and the
attachments thereto. OAS should ensure that the revised documents are posted
to the Commission’s Intranet site and that copies are circulated to all staff within
the SEC’s Real Property Leasing Branch, as well as other SEC staff with leasing-
related responsibilities.

Recommendation 2:

The Office of Administrative Services should amend Securities and Exchange
Commission (SEC) Regulation 11-03 to include a complete list of relevant
authorities (federal statutes, regulations, executive orders, Office of Management
and Budget circulars, and internal SEC policies) that apply to real property
leasing and should finalize detailed guidance to ensure compliance with those
authorities.

Recommendation 3:

The Office of Administrative Services should measure the Securities and
Exchange Commission’s real property leasing policies and procedures against
pertinent provisions of General Services Administration (GSA) regulations,
including the GSA Acquisition Manual and Subchapter C of the Federal
Management Regulation, as appropriate.

Recommendation 4:

The Office of Administrative Services should ensure that the Leasing Branch’s
policies and procedures, including Operating Procedure 11-03 and the attached
checklists, provide comprehensive guidance for Securities and Exchange
Commission (SEC) leasing officials regarding the leasing process that will assist
in ensuring compliance with the applicable policies, regulations and best
practices. These materials should detail the regulations and policies that should
be followed at the various stages of the leasing process and should include
pertinent forms and examples. Once finalized, these materials should be
distributed to all staff in the SEC’s Real Property Leasing Branch and other SEC
staff with leasing-related responsibilities.



Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            36
                                                                      Appendix IV


Recommendation 5:

The Office of Administrative Services (OAS) should utilize the “Required
Components” section of the Federal Real Property Council’s (FRPC) Guidance
for Improved Asset Management to develop and finalize the Security and
Exchange Commission’s (SEC) real property leasing asset management plan, as
appropriate. If there are any required components in the FRPC Guidance that
OAS determines should not apply to the SEC, the plan should include an
explanation as to why the SEC’s unique circumstances render those components
unnecessary.

Recommendation 6:

The Office of Administrative Services should amend its leasing policies and
procedures to require the tracking and monitoring of all leasing expenses (i.e.,
rent, operating costs and taxes) for informational and budget formulation
purposes.

Recommendation 7:

The Office of Administrative Services (OAS) should develop performance goals
for the Securities and Exchange Commission’s real property leasing activities,
including both lease acquisition and the monitoring and administration of existing
leases; identify key factors external to OAS that could significantly affect the
achievement of its performance goals; and periodically evaluate whether these
goals are met.

Recommendation 8:

The Office of Administrative Services (OAS) should develop performance
measures to assist in evaluating the effectiveness of the major functions of real
property acquisitions and operations, and periodically evaluate performance
based on these measures. The performance measures should include metrics
for all of the OAS Branches that have a role in real property leasing, including the
Real Property Leasing, Construction and Security Branches.

Recommendation 9:

The Office of Administrative Services should revise Securities and Exchange
Commission Regulation 11-03 and draft Operating Procedure 11-03 to include
complete written policies and procedures for timely acquisition planning pertinent
to real property leases. The revised policies and procedures should require the
preparation of a project plan and schedule with projected dates for achieving
various milestones well in advance of the scheduled commencement of a lease.



Real Property Leasing Procurement Process                           September 30, 2010
Report No. 484
                                            37
                                                                       Appendix IV


Recommendation 10:

The Office of Administrative Services (OAS) should adopt evaluation procedures
that involve scoring and ranking various options prior to deciding to vacate
leased premises or to terminate a lease. OAS should develop a transparent
methodology for how it formulates its scores and rankings, including an
explanation of any numerical scores used to rank various options.

Recommendation 11:

The Office of Administrative Services, in consultation with the Office of General
Counsel, should ensure that the Securities and Exchange Commission’s (SEC)
real property leases provide appropriate protections in the event the SEC needs
to terminate a lease before the expiration date, such as, for example, the use of a
termination for convenience clause under Part 49 of the Federal Acquisition
Regulation, another appropriate clause, or a flexible-term lease.

Recommendation 12:

The Office of Administrative Services should revise the Security and Safety
Survey document to include more specific information, i.e., the number of recent
incidents in the vicinity and the likelihood of future incidents to occur, a best
estimate of the likelihood of the indentified vulnerabilities to be exploited,
recommended countermeasures based on the likelihood of the identified events
to occur, and cost estimates for recommended countermeasures.

Recommendation 13:

The Office of Administrative Services should implement final policies and
procedures to ensure that the Real Property Leasing Branch consistently
includes the Building Security Survey document in all solicitations for officers for
leased building space.

Recommendation 14:

The Office of Administrative Services should implement final policies and
procedures to ensure that the Security Branch performs a physical review of
prospective building locations and determines the threat within the immediate
area prior to entering into a lease for any facility.




Real Property Leasing Procurement Process                            September 30, 2010
Report No. 484
                                            38
                                                                                     Appendix V


                        Management’s Comments

                                        MEMORANDUM
                                        September 28, 2010




   TO:           H. David Kotz
                 Inspector General .

   FROM:         Sharon Sheehan        ~ ,Jl.4J.,
                 Associate Executive Director
                 Office ofAdministrative Services

   SUBJECf:      OAS Management Response to Draft Report No. 484, Real Property ~jng
                 Procureme!Jt Process

   This memorandwn is in response to the Office ofInspector General's Draft Report No. 484, Real
   Property Leasing Procurement Process. Thank you for the opportunity to review and respond to
   this report.




   Cc:    KaylaJ. Gillan, Deputy ChiefofStaff; Office ofthe Chairman
          Diego Ruiz, Executive Director, Office ofExecutive Director .
          David Becker, General Counse~ Office ofGeneral Counsel
          George Brown, Assistant Counse~ Office of General Counsel
          John Branch, Assistant Director, Office ofAdministrative Services
          Linda Sudhott; Senior Program Analyst, Office ofAdministrative Services




Real Property Leasing Procurement Process                                       September 30, 2010
Report No. 484
                                             Page 39
                                                                                     Appendix V


  Introduction

          The Draft Audit Report (Report) reviews the SEC's leasing prowam I believe the SEC's
  Iessing program has beee vecy suca:ssful I appreciate the input from)'>ur audit staff; and look
  i>rward to further improvements to the lossing program with)'>ur Report in mind.

          ODe of the main QOmments oftbe Report is that leasing policies and procedures cnukt be
  improved. We agree that policies and ~ures sboukt always be improved. We will work to
  ensure that its policies and proc:cdun:s properly document goals and requirements.

          The Report also includes a focus on the SEC's New York Regional Office lease. As)'Ou
  Imow, the terrorist attaclcs of September II, 2001 destroyod the SEC's New York office, which
  was located as part of the World Trade Center complex. We are extremely proud that, ~
  three weeks of the tragic events of September II, the SEC was able to reopen for business in
  lower Manhattan. The SEC was the first Federal agency to reopen in that area. and in so doing
  sent an important signal to the public and the investment oommunit:y of the SEC's oontinuing
  regulatory presenCe and our commitment to this business ceoter. As time passed after the move,
  it became apparent that problematic materials used to c o _ this old« building wss
  troublesome to staff morale., and that the space: would not be able to accommodate future growth
  of the New York office. Thus. the SEC moved its opentions to a larger 1o(:ation nearby and, in
  cormection with GSA, transferred the ok! space to a diffcn::nt govc:mme:nt tenant. The paymeri:s
  the SEC made to effect this move were, in our view. appropriate.

         Another portion oftbe Report fi>cuses on the leasing program's effOrts to povide a
  succeeding lease in the SEC's San Francisco Regional Office. We believe that oW" effurts
  relIeded appropriate management flCX1bility in n:sponse to c:hanaing market coodmos and
  obtaining significant cost saVings i>r the taxpayen<.

         Other findings in the Report address the importance of communication and coordination
  between the Leasing Branch and the Security Branch. We agree on the importance ofeffective
  coordination between these two branches. I believe improvements have been made, and we are
  committed to continuing to work to ensure their effective interaction.

          The remainder of this memorandum. addresses the specific findings and reoonunendations
  in the Report. Our leasing staffhas also shared its more specific views with yoUI' office, and I
  will00'  repeat that infur=tion here.

  FiDdiag 1: The SEC'. I...easmC Policies ucI Proeeclara Are lDadequte ud Incomplete.

         The Report expresses concerns about the SEC's policies and procedun:s goVC<Oing the
  SEC's real estate leasing program. As noted above, we agrc:e that policies and procedures shoukt
  always be improved, and will worlc to eosure that leasing policies and prooedun:s properly




Real Property Leasing Procurement Process                                        September 30, 2010
Report No. 484
                                                40
                                                                                            Appendix V


    _        goals and ~ w. tlUnk the leumg program ovenll has been a notable
    sua:ess.



    TIle 0fBce of AclmbUItntive Serrica ailould revile Sccaritielud ETch.age Com.aaiIdo-.
    (SEC) Repla_II-3 aad dnft 0p0n1lDx Prvcodure 11-03 (OP 11-03) 10 ....... 1IIa1 they
    are adequate ad complete ud iadll.de tM lafonDatio. ido.tifted bathe audit Report, aDd
    lhoaJd fIIlalIzeor 11-03 aDd the .ttackmaltJ tberdo. OAS should tDAlR that these
    nviIed doeullleD.b aft: posted to the CommlgioD'. Iatn..et dte ud tII.t copt. are
    cirtuJated to aII,tatrwl*'bl the SEC's Real Property LeaslaC Brwach.       8' wen a. other SEC
    Itaff with Itulal'"nlated respoD.fbUttles.
            We concur. The SEC finaJizcd the SEeR 11-03 and it is posted on the Intranet. Work is
    ongoing on the companion Leasing Pro:gr8m OP 11-03 and incorporated cbcck.lists. with plans to
    finalize and" issue them in the near future. We will continue to work 10 improve ~ SECR and
    operating cbecklists oonsistcnt with governing autrorities and responsible policies.




   (SEC) Repla_ 11-3 to        _d.
   1'be 0fBee of Admlalstndve Servitel .....Id UMDCl Seeuritielaad EId.aap Coaunislion
                                     a complote lilt of..lev... authoritla (fed.nll........


                                         o_
   rep.llldoaI, eucadve orden, Office of M........t ud IRd&d cirtu.n, ad latemal
           comp lllat apply to naI property leadaa ..d ••ooJd fIaaItze detailed cuJdaaee
   SEC poUdea)
   .......                                                                                      '0
             W. C:OIlCUr. OAS _        with the OIG that allrelevaot authorities and guidaoee should
    be included in SECR 11-03, OP 11-03, and incorporated and referenced guidance and checklists.
    We specifically ootethat OP t 1-03, which is cited in SECR 11-03. cites a detailed list ofrelevant
    autlmrities including those specified in the Report. We agree with the DIG on the benefit and
    utility ofcheclclists and detailed guidance fur usc by leasmg personne~ and belicve that such
    checlclists and detailed guidaoee an best listed in operational desk guidance, where they can he
    c:outiu..usly updated as ueeded, rathot than iu a fbrmal SEC administntive regulatiou (SECR),
    whioh is nol wended to he amended frequently. The dnftmg ofOP 11-03 hegon w~h the
    c:om:spoudmg GSA Lease Fil. Checklist operational dooumeut, whioh GSA updates frequen.ly.
    We are DOW working to fmalize OP 11-03, which is currently a working docwneot.

    ReeoJiuDeDda_ 3:

    The 0fIice of AdmiDiltrative Servieel ....oakl meuu.re tJae Securities ad Ex....•. .
    o-minioa'. real property Ieuiac poIidn ud proeedura apiDst pert:i.aalt provisiou of
    GeMnl Senica AduIiIaIstn_ (GSA) ......110... tndodlua the GSA AcqllilJtlou
    M..uI ...d S.bpart C of the Fedmd Maaapmeat RepJatioa, as appropriate.




Real Property Leasing Procurement Process                                               September 30, 2010
Report No. 484
                                                    41
                                                                                               Appendix V


               We concur. OAS agrees that GSA, as the leading Federal leasing activity, provides a
       significant precedent for any government leasing work. We agree that GSA practices frequently
       provide useful guidance for leasing decisions and the SEC routinely considers GSA practices,
       where appropriate, when undertaking leasing actions and developing regulations. Further, the
       Leasing Branch staffcontains a strong cadre ofexperienced GSA professionals who bring that
       agency's institutional expertise to the SEC's independent authority. At the same time, as the
       OIG report acknowledges, the SEC has independent leasing authority, and is exempt from GSA
       space management regulations. The SEC was granted independent leasing authority so that,
       where necessary or appropriate, it could be different from GSA, and that the SEC would be able
       to exercise independent judgment on how best to achieve leasing value. While we cannot,
       therefore, promise that the SEC's own space management regulations will exactly track to GSA
       standards, we can assure you that we will continue to carefully assess alI relevant GSA standards
       and guidance in order to incorporate those that are applicable and appropriate to the SEC's
       particular mission and authority.

       Recommendation 4:

       The OffIce of Administrative Services should ensure that the Leasing Branch's poUeies and
       procedures, inchuling Operating Procedure 11-03 and the attached checldists, provide
       comprehensive guidance for Securities and Exchange Commission (SEC) leasing officials
       regarding the leasing process that wiD assist in ensuring compUance with the appUeabl~
       poUcies, regulations and best practices. These materials should detaD the regulations and
       poUcies that should be foUowed at the various stages of the leasing process and should
       include pertinent forms and examples. Once finalized, these materials should be distributed
       to all staff in the SEC's Real Property Leasing Branch and other SEC staff with leasing-
       related responsibilities.

               We concur. As discussed above in reference to Recommendation 2, OAS has and will
       continue to ensure that the OP 11-03 contains sufficient details, forms, examples to execute the
       leasing program. The SEC is finalizing the existing working draft OP 11-03 and its incorporated
       checklists. The Leasing Branch staffare fumiliar with the GSA checklist and routinely consider
       these lists during their work. Additionally, the Leasing Branch posts common Solicitations for
       Offers (SFO) docwnents on the OAS shared drive so branch members have access to templates
       and forms as revised for SEC acquisitions.

       Recommendation 5:

       The Office of Administrative Services (OAS) should utilize the "Required Components"
       section of the Federal Real Property CouncD's (FRPC's) Guidance for Improved Asset
       Management to develop and finaUze the Security and Exchange Commission's (SEC's) real
       property leasing asset management plan, as appropriate. H there are any required
       components in the FRPC Guidance that OAS determines should not apply to the SEC, the




Real Property Leasing Procurement Process                                                  September 30, 2010
Report No. 484
                                                     42
                                                                                             Appendix V



     pin '''011'' iDet-de aD. elp....tioa u to ",by tbe SEC'.lUlique drcumltaDeeI reDder those
     COlllpOllellts UlllM'Ct'Ary.

              Weroncur. OAS agrees with the OIGoo tbeimportance ofcnswing that asset
     evaluation, planning, and management is appropriatdy addressed in SECR 11-1)3, OP 11-1)3, and
     incorporated guidance and checklists. We also agree that there are elements ofthe FRPC's
     gu.iiaooc that may be relevant and appropriate mr the SEC to adopt. At the same time, we: note
     that there: may be 1imi1aI:iom on the usefulness or Ipplicabilityofthis guidance to the SEC. First,
     the FRPC', guidance diredive applies only to Ia!gc cabinet-level agencies (~ed "eFO Art
     agc:ocies"), and not to .mallet agc:ocies like the SEC. so the guidaooe is not geoerally tailored to
     the cIlal1cllgcs fiIciog a small" agency such as the SEC. Finally, as a gcncnl matt", the SEC is
     DOt authorized to assume lega.l obligat:i:ms that have DOt bem imposed on it. NotwXbsta:nding
     tbc:sc DOtable Ijrn,atioos on the applicability of the FRPC guidance to the SEC, we have mund
     the FR.PC gumncc's template mr an agcucy's asset n:umagement plan to be valuable. The
     LcasingBrancb roWocly amaid... this as part of its rcguIar dutics to plan ilr, ""lWrc, and
     manage the SEC's assets, m:l we will rontinue to ensure that asset evaluation, planning. and
     management uc appropriately addressed in applicable SEC rogulatio", and guidaocc.



     The otIIee of AdmialItnltive Suvica .boa" amead Its IeuiJIc poIideI aud proud.res to
     l'U(uire the tracldag ud moaltoriDg of aD leui.ug apeasa (Leo, mit, open.tiDg costs and
     taus) for iDformatioul aud lMIeIget fOl'lllu..tioa purpoas..

              We roDCW'. We are pleased that the OIG did not ideotify any inappropriate payments or
     budget funllllation problc:ms relating to the leasing program, which offers evidence ofthc:
     effectiveness of the Leasing Branch's ef'furts to accurately track expenses. Leasing costs in fully
     serviced leases (ie., taxes, utilities, etc.) uc generally bond1ed together in the SEC-adopted
     standud GSA Form. 1217, and these costs are routinely rompared and monitored during
     acquisition, negotiation and administratioo against industry norms. The: Leasing Branch has
     worted with OFM to develop new budget object class (BOCs) codes for Momentumll and to
     furth« refine additional components ofrent. The: new BOCs will enhance the Leasing Branch's
     ability to track: rost components and to imnulate future budgets.

     Rec:omm.endatiou 7:

     De 0fIl" of AdmbliItrative Senic:a (OAS) should develop performaac:e goals for tbe
     Securities and Exc:hauge Commlsdoa'. ruI property IeallDe activtttes. btcludlDg both lease
     acq._.....       a. _riDg ..d admlaloIratioa of _ g Ieuct, a.d ld..tIfy key
     fKton eJtenla;1 to OAS that cou"lig:Dlfka.tIy affect the .chleve.at of Its performance
     pall, ad IbouId paiod.lc:aDy tv....te ",..ettaer tbese Coals are     met




Real Property Leasing Procurement Process                                                September 30, 2010
Report No. 484
                                                     43
                                                                                              Appendix V


            We concur. OAS plans to develop appropriate performance goals for the real property
    leasing program. As a general matter, we note that OAS has established general performance
    goals and measures, which are evaluated throughout the year, for instance through OAS's annual
    submittals to the SEC's Performance and Accountability Report and its management assurance
    on internal controls statements.

    Recommendation 8:

    The Office of Administrative Services (OAS) should develop performance measures to
    assist in· evaluating the effectiveness of the major functions of real property acquisitions
    and operations, and should periodically evaluate performance based on these measures.
    The performance measures should include metries for aU of the OAS Branches that have a
    role in real property leasing, including the Real Property Leasing, Construction and
    Security Branches.

            We concur. OAS plans to develop appropriate performance metrics for the real property
    leasing program. As a general matter, we note that OAS has established general performance
    goals and measures, which are evaluated throughout the year, for instance through OAS's annual
    submittals to the SEC's Performance and Accountability Report and its management assurance
    on internal controls statements.


    Finding 2: The Lack of Adequate PoUcies and Procedures Relating to the Renewal or
    Competition of Building Leases that Were Expiring Coutributed to the Payment of
    Increased Rent for the San Francisco Regional Office Space.

           We appreciate having the opportunity to comment on this portion ofthe Report, which
    focused on the leasing ofspace for the SEC's San Francisco Regional Office (SFRO).

            Overal~ we believe that the SFRO lease delivered significant benefits for the agency.
    The significant decline in commercial office space rental rates in San Francisco created a cost
    savings opportunity. As circumstances changed, the leasing program adjusted and abandoned its
    current extension plans in favor ofcompetition. We did attempt to negotiate a short-term
    extension at a more affurdable rate, but the landlord did not accept our proposals. As a result,
    the agency was forced to make a business judgment to carry the lease into holdover while we
    conducted a full and open competition.

            The results ofthat competition are now complete, and we strongly believe that we
    achieved good value and terms for the SEC. Specifically, the agency moved from an expiring
    lease rate of$53/per rentable square foot (prst) rate to a ten-year average rate of$45.50/prsfwith
    more tenant improvement (TI) allowance, tenant credits and zero per cent amortization. We also
    negotiated a rental rate that was more than $1.8 million less than the next low offeror, a
    significant savings to taxpayers. While we acknowledge that there were costs associated with




Real Property Leasing Procurement Process                                                 September 30, 2010
Report No. 484
                                                     44
                                                                                               Appendix V


      continuing the existing rental rate to provide time for the benefits ofcompetition to be realized,
      these costs were, on the whole, modest and will be fully recovered through the succeeding lease.

      Rec\)mmendation 9:

      The Office of Administrative Services should revise Securities and Exchange Commission
      Regul8tion 11-3 and draft Operating Procedure 11-03 to include complete written poDcies
      and procedures for timely acquisition planning pertinent to real property leases. The
      revised ,oDeles and procedures should require the preparation of a project plan and
      schedule with projected dates for achieving various mllestones weD in advance of the
      scheduled commencement of the lease.

             We concur. These policies and procedures are substantially in place and we will continue
      to improve them with the audit recommendation in mind.


      Finding 3: The SEC Has Made and Continues to Make Simultaneous Lease Payments for
      Two Properties in New York, One of Which the SEC Has Not Occupied for Several Yean.

              As noted above, the SEC is proud that after the tragic events ofSepternber 11 lb, which
      destroyed its New York: offices, the SEC was able within three weeks to reopen for business in
      lower Manhattan. It subsequently became apparent that problematic materials used to construct
      this older building was troublesome to staffmorale, and that the space would not be able to
      accommodate future growth ofthe New York office. Thus, the SEC moved its operations to a
      larger location nearby and, in connection with GSA, transferred the old space to a different
      government tenant. The payments the SEC made to effect this move were, in our view,
      appropriate. The cost of the old space is shared by two federal agencies, the SEC and GSA, at no
      additional cost to the taxpayer.

      Recommendation 10:

      The Office of Administrative Services (OAS) should adopt evaluation procedures that
      involve scoring and ranking various options prior to deciding to vacate leased premises or
      to terminate a lease. OAS should develop a transparent methodology for how it formulates
      Its scores and ranklngs, including an explanation of any numerical scores used to rank
      various options.

              We concur. Given the special circumstances that resulted from the 9/11 terrorist attacks,
      both senior management and Congressional staffwere briefed by the leasing program on the
      potential cost ofmoving the NYRO space and other pros and cons befure the decision was taken.
      While our experience-and hop~is that it will be extremely rare fur a federal agency to leave a
      lease prior to its expiration or firm tenn, OAS recognizes the importance ofa good planning




Real Property Leasing Procurement Process                                                  September 30, 2010
Report No. 484
                                                      45
                                                                                               Appendix V


    process to help mitigate such risks. We will consider as recommended the use ofrankings and
    scores ofvarious options should such scenarios arise in the future.

    Recommendation 11:

    The Office of Administrative Services, in consultation with the Office of General Counsel,
    should ensure that the Securities and Exchange Commission's (SEq real property leases
    provide appropriate protections in the event the SEC needs to terminate a lease before the
    expiration date, such as, for example, the use of a termination for convenience clause under
    Part 49 of the Fedenl Acquisition Regulation, or another appropriate clause, or a flexible-
    term lease.

           We concur. As noted in the response to Recommendation 10, it is extremely rare for a
   federal agency to leave a lease prior to its expiration or firm term. We will work with OGC to
   ensure that as favorable clauses as possible are included in SEC leases, and to consider GSA
   practices and clauses on termination and default. We note that the SEC has sought and obtained
   fleXIbility over lease terms through substitution of agency clauses that are in several SEC leases,
   and that the headquarters lease provides that the SEC can assign certain amounts ofspace to a
   high quality government associated tenant and be relieved ofits lease obligations for that
   assigned space.

           We will also continue to explore other options, including whether termination for
   convenience clauses would be appropriate for leases. As a general matter, GSA and private
   sector practice does not include oonvenience termination and other early no-fault termination
   clauses in office space leases. This is because leases, unlike other contracts, can last for many
   years, frequently 10 to 15 years, an~ often require significant construction and renovation of
   buildings, which in tum requires financing. Because a termination for convenience clause in
   effect.oonverts a Iong-tenn lease into a lease that can be terminated at wil~ we are not aware of
   lenders who will provide financing for a building where a tenant can terminate for convenience,
   as such a termination would interrupt the repayment oftheir loan.

    Finding 4: Improved Coordination Is Needed Between the OAS Leasing and Security
    Branches to Ensure the Necessary Security Information Is Obtained Prior to Entering into
    a Lease.

           We appreciate having the opportunity to comment on this portion ofthe Report, which
   focused on the leasing ofa temporary facility in Alexandria, Virginia to acconunodate growth .
   that could not be accommodated at the SEC's nearby Operations Center (OPC). Members ofthe
   Leasing, Construction, and Security Branches and the Office ofInfonnation Technology (OIT),
   as well as senior OAS management, participated in the visits to all viable sites.

           As the Report notes, the physical security of this temporary facility was a key area of
    focus fur the agency. The agency ultimately decided that the most cost-effective solution,




Real Property Leasing Procurement Process                                                 September 30, 2010
Report No. 484
                                                     46
                                                                                           Appendix V


   especially given the temporary nature ofthe lc:asc, was to provide unarmed guards and one off-
   duty armed police officer (ODPO) instead ofinstalling and maintaining an electronic access
   system At the SEC, the security and safety ofour employees and contractors arc paramount
   concerns. Because the Leasing Branch does not make security decisions tOr a leased location,
   and must work with the Security Branch for the incorporation ofthc appropriate security
   countermeasures fur that locationlbuilding, GAS agrees on the importance of ensuring timely
   and effective communicati:m and coordination between these two branches particularly with
   respect to urgc:nt acquisitions.

   Recommendatioa 12:

   The omce of AdmlDJltrlth'e Services should revise the Sec:urity aud Safety Survey
   doeument to iadade lOOn specific iDformatloa, Le., the number of reeent incidents in the
   vicinity and rite UkeUhood offuture incidents to occur, a best estimate of the likelihood of
   the lndentifltd valaerabillties to be exploited, recommended countermeasures based on the
   HkeUhood of the IdeDdfted events to oeeur, ad eost estimates for recommended
   eoa.ntermeasures.

            We concur. We will ensure that this Safety and Security Assessment document, which
    often reveals sources and methods, is marked and stored appropriately to prevent the content
  . from entering the public domain, thus ensuring that our security posture is not compromised.
    Copies will not be shared outside appropriate Government entities or contractors.

   ReeommeDdatioD 13:

   The Office of Acl.ministntive Sentees should implement final poIieies ud procedures to
   ensure that the Real Property Laslag BraDch eo.slatently. iad.des the Bulldiag Security
   Survey document In aD solkttadoDS for onken for leased building space.

           We concur. OAS plans to take action shortly to issue final policies and procedures. In the
   meantime, we wish to reassure you that the Leasing Branch has been utilizing all functions of the
   draft procedures in their day-to-day leasing program responsibilities.

   RecommendadoD 14:

   The 0fIice of Administrative Semees llauald implement final polic:ies and procedures to
   ensure that the Security Branch performs a physkal review of the prospeet:ive building
   location and determlaes the threat within the immediate area prior to eDtering lato • lease
   for auy facility.

            We concur. Using the finalized Building Security Survey document and SFO paragraphs
   agreed to and finalized by the Security and Leasing Bnmcbcs in May 2010. the draft OP II-OJ
   will be updated to reftect the timing and perfurmance ofthe related security and lease acquisition
   tasks.




Real Property Leasing Procurement Process                                              September 30, 2010
Report No. 484
                                                   47
                                                                                                Appendix V



      AppendixD.

              The Report also suggested several actions that could be taken to strengthen previous SEC
      actions taken in response to a 2001 DIG audit report (Report #330, May 31,2001).

      Recommendation B: OGC should document its review of real property leases by
      including a memorandum in the leasing     me.
                                                The OIG beUeves that all lease files should
      contain doeumentation reflecting OGC review of the lease.

            . We concur. OGC reviews all lease actions, and reviews numerous stages ofthe leasing
      process, as fuund in the Lease File Checklist and associated guidance, to include advertisements,
      SFOs, SSEB decisions, etc. The reviews are typically documented via emailed comments and
      approvals and the records are placed in the lease files. To address the recommendation, OAS
      Leasing Branch will add to its checklist a request from OGC at the time oflease award to note its
      review by email to the leasing specialist who will put the email in the official file.

      Recommendation E: OAPM [now OASI should provide the field offices with additional
      guidanee and training on follow-up procedures for buDding maintenance services.

              We concur. While the Report does not identify any specific instances ofproblems
      existing in the regional offices, OAS will provide additional training fur the leasing program in
      the regions. In the regional offices, Administrative Contacts are issued delegation-of~COR­
      authority letters by the Lease Contracting Officer, which spells out their responsibilities. They
      are not pennitted to make leasing decisions, but instead are directed to report building
      management issues to the building Property Managers and bring any leasing issues to the
      attention ofthe Contracting Officer. To address the recommendation, OAS will provide training
      at the annual Administrative Contacts conferences, where leasing issues and best practices are
      among topics disCussed, and will consider other training opportunities, as appropriate, for the
      regional Administrative Contacts, as well as maintain open communication with them during site
      visits and daily interactions.




Real Property Leasing Procurement Process                                                   September 30, 2010
Report No. 484
                                                      48
                                                                     Appendix VI


      OIG Response to Management’s Comments

The Office of Inspector General is pleased that the OAS has concurred with all of
the report’s 14 recommendations. We appreciate OAS’s commitment to
improving the policies, procedures and processes pertaining to real property
leasing. We believe that the implementation of the OIG’s recommendations will
result in significant improvements to the SEC’s real property leasing program and
will ensure, consistent with the intent of Congress in providing the SEC with
independent leasing authority, that the SEC exercises that authority vigorously to
achieve cost savings and increase the Commission’s productivity and efficiency.




Real Property Leasing Procurement Process                         September 30, 2010
Report No. 484
                                            49
                                                                       Appendix VII


                   Schedule of Questioned Costs

                    Table 2. Questioned Costs Relating to
                    Excess Rent
                                Questioned Costs
                     Excess rent paid for 44 Montgomery   $203,000*
                     Street (* $40,600 x 5 months)
                     Total                                $203,000
                    Source: OIG Generated




Real Property Leasing Procurement Process                             September 30, 2010
Report No. 484
                                            50
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
